<html>
<title> - POLITICAL, ECONOMIC, AND SECURITY SITUATION IN NORTH AFRICA</title>
<body><pre>[Senate Hearing 113-156]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-156
 
                   POLITICAL, ECONOMIC, AND SECURITY 
                       SITUATION IN NORTH AFRICA 

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NEAR EASTERN AND 
                    SOUTH AND CENTRAL ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 21, 2013

                               __________

       Printed for the use of the Committee on Foreign Relations
      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

86-355 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON NEAR EASTERN AND        
                SOUTH AND CENTRAL ASIAN AFFAIRS        

                 TIM KAINE, Virginia, Chairman        

BARBARA BOXER, California            JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JOHN McCAIN, Arizona

                              (ii)        



                            C O N T E N T S

                              ----------                              
                                                                   Page

Dory, Amanda, Deputy Assistant Secretary of Defense, African 
  Affairs, U.S. Department of Defense, Washington, DC............    10
    Prepared statement...........................................    12
    Responses to questions submitted for the record by Senator 
      Robert Menendez............................................    58
Joscelyn, Thomas, senior fellow, Foundation for Defense of 
  Democracies, Washington, DC....................................    36
    Prepared statement...........................................    38
Kaine, Hon. Tim, U.S. Senator from Virginia, opening statement...     1
Lawrence, William, visiting professor of political science and 
  international affairs, George Washington University's Elliott 
  School of International Affairs, Washington, DC................    30
Romanowski, Alina, Deputy Assistant Administrator, Middle East 
  Bureau, U.S. Agency for International Development, Washington, 
  DC.............................................................    14
    Prepared statement...........................................    16
Schmierer, Richard, Principal Deputy Assistant Secretary of 
  State, Near Eastern Affairs, U.S. Department of State, 
  Washington, DC.................................................     5
    Prepared statement...........................................     6
    Responses to questions submitted for the record by Senator 
      Robert Menendez............................................    51
Wehrey, Frederic, senior associate in the Middle East Program, 
  Carnegie Endowment for International Peace, Washington, DC.....    33
    Prepared statement...........................................    35

                                 (iii)

  


      POLITICAL, ECONOMIC, AND SECURITY SITUATION IN NORTH AFRICA

                              ----------                              


                      THURSDAY, NOVEMBER 21, 2013

                           U.S. Senate,    
           Subcommittee on Near Eastern and
                   South and Central Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:16 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Tim Kaine 
(chairman of the subcommittee) presiding.
    Present: Senators Kaine and Risch.

             OPENING STATEMENT OF HON. TIM KAINE, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Kaine. Let me call this hearing to order. This is 
the Subcommittee on Near Eastern, South and Central Asian 
Affairs of the Senate Foreign Relations Committee.
    I want to welcome two panels of excellent witnesses before 
us today to address political, economic, and security situation 
and developments in North Africa. We have two wonderful panels. 
I indicated to our first panel for a few seconds that we have 
had an interesting day on the floor, and there will be some 
more votes later today.
    The ranking member, Senator Risch, has invited witnesses to 
participate as well, and we will likely be in and out during 
the hearing, but I think it is a good idea to go ahead and get 
started.
    What I will do is give some opening comments, and then I 
will turn it to the witnesses and ask them to comment for about 
5 minutes each, and then we will get into some Q&A, and then we 
will repeat with the second panel the same basic format, 
allowing other Senators who are here to ask questions as well.
    This is my first hearing as chair of this subcommittee. I 
was the chairman of the International Development Subcommittee 
until late July, and then with the change in the membership of 
the FRC occasioned by the election of Senator Ed Markey, there 
was a switching in the committee chairs, and I am very excited 
to tackle this important region as is described here in this 
building from Marrakesh to Bangladesh.
    I am excited to begin my chairmanship with a hearing on 
North Africa within that very broad and probably unmanageably 
broad scope of real estate in North Africa. We sometimes pay a 
little less attention to it than I think we should, and I 
wanted to begin here, and especially in a propitious way since 
King Mohammed VI of Morocco is visiting the White House this 
week, I thought it was a good thing to do and coincident with 
his visit.
    Three years ago, a young Tunisian unleashed a wave of mass 
political protest and change across North Africa and the 
broader Middle East, and also across the world. The Arab Spring 
has affected each of the countries of North Africa that we will 
discuss today. Morocco and Algeria have maintained basic 
political continuity during the Arab Spring. We will likely 
hear about some significant security status and political 
reform status about each of those countries today.
    Tunisia and Libya have undergone fundamental and at times 
violent political change. Tunisia is participating in a 
national dialogue, and Tunisians seem generally committed to a 
democratic process, but in each of these countries there is 
significant work to do.
    There are regional debates among these four countries about 
governance, accountability, the transparency of reforms, the 
effectiveness of governmental programs, economic liberalization 
and the role of religion and military in public life.
    While the political and societal debates will go on for a 
long time, as they do here, the deterioration of security 
conditions recently has raised important questions and has 
raised the stakes certainly for local citizens and communities, 
and also for the United States and our interests. Violent 
extremist groups appear to be exploiting porous borders in the 
region and the weaknesses of security forces across North 
Africa. Al Qaeda in the Islamic Maghreb, AQIM, its affiliates 
and breakaway factions, and movements referring to themselves 
as Ansar al-Sharia are also capitalizing on divisive and entity 
issues, as well as popular frustrations with the slow pace of 
reforms in these transitional states.
    AQIM at this point--we will have testimony about this--does 
not appear to pose an imminent threat to the United States 
outside of North and West Africa, but we are all concerned 
about its capacity to strike at civilian populations, at allied 
nations, and at United States and other Western interests, and 
also the role of these groups in regional arms trafficking and 
ties to other extremist organizations. I know we have witnesses 
who are very well prepared to talk about this today.
    Since late 2010, U.S. policy has sought to encourage 
greater political openness and participation in North Africa 
while not undermining other foreign policy priorities, 
especially the efforts to combat terrorism. I want to hear 
about that balance.
    In the budget environment, which is very challenging--I am 
on the budget committee as well--we are engaged in a budget 
conference which, if it works, would be the first example of a 
successful budget conference in a divided Congress since 1986. 
But one of the realities about the budget conference that we 
all grapple with is resource limitations. So large increases in 
U.S. assistance packages are not realistic at the current time.
    I want to hear about programs, especially from the USAID 
perspective, policies and tools to address challenges in North 
Africa that do not come with high dollar figures but rely on 
innovation and smart investments, and how we are coordinating 
and leveraging those investments together with our 
international partners.
    A few words about each of the countries in the region.
    Morocco remains a staunch counterterrorism and security 
partner. We have a free trade agreement with Morocco, and 
Virginia ports, just to use my own State as an example, have 
strong business partnerships in Morocco. King Mohammad VI's 
visit with the President tomorrow is an important one to ratify 
and continue to express appreciation for a long-standing 
alliance that goes back into the 1770s. Senator Menendez and I 
sent a letter to the President this week encouraging the 
President to continue to build upon this relationship. I see 
opportunities with Morocco potentially as a positive example 
for the way the United States engages the rest of the region.
    The United States has a strong dialogue with Algeria. We 
want to hear about the Algerian agenda. I know our relationship 
with Algeria is improving, especially as we face the common 
challenges and enemy of the AQIM. I would love to hear about 
ways from these witnesses' perspectives about how the Moroccan-
Algerian relationship could be improved. There are economic 
opportunities being lost every day as a result of that tension, 
and that would, of course, mean addressing the long-disputed 
territories in the western Sahara.
    Tunisia sought, sadly, to high-profile political 
assassinations in 2013, but the citizens still have high hopes 
for successful democratic transition. The Islamist Party, Al 
Nehadi, is engaging in what appears to be real political and 
democratic dialogue, the National Dialogue. We will hear about 
that. Secular and Islamist tensions persist, and powerful trade 
unions remain an effective regulator of the political process. 
I am anxious to hear about the prospects of the success of that 
dialogue, and United States programs to foster Tunisia's 
democratic process.
    Libya is, obviously, a very, very vexing challenge, as this 
Nation knows so very well. The lack of security is threatening 
prospects for any real political process. We will hear, in our 
second panel, from a witness who is an expert on Libya--who is 
actually just back from Libya--Fred Wehrey from the Carnegie 
Institute, landed just yesterday, where he has been studying 
the militias, and we are looking forward to hearing that 
testimony.
    Libya is different in that it does not need a lot of 
financial assistance. It has ample natural resources. But Libya 
needs capacity-building and training. Militias need to be 
disarmed, which is a huge task, and we are worried about porous 
borders and weapons proliferation, arms finding their way to 
Egypt, Gaza, and Syria.
    I know the United States, along with international 
partners, is working on a comprehensive security assistance 
program, and we will hear about that.
    Of course, we cannot talk about Libya without mentioning 
the tragedy at Benghazi on September 11, 2012. Four brave 
American public servants were killed. There has been a lot of 
attention on that. There has been a lot of effort to affix 
blame and also, and more importantly, an effort to learn what 
went wrong and what we can do to improve the safety of our 
Embassy and security personnel not only in North Africa but 
around the world.
    I have been happy as a member of the Foreign Relations 
Committee to work on efforts with the Department of State to 
implement some of the recommendations of the Accountability 
Review Board to make sure that we can continue to carry out 
vigorous and aggressive diplomacy, but also to take the steps 
that we need to keep our embassy personnel safe.
    We need to reward those and protect those and support those 
who do what Ambassador Chris Stevens and his colleagues were 
doing there. They believed in improving the livelihood of 
Libyans and promoting U.S. interests, and they felt that those 
were consistent, not inconsistent. Ambassador Stevens had so 
many close friends in the State Department and in Virginia. Dr. 
William Lawrence, who is on our second panel, was a close 
friend, and we look forward to hearing from him.
    So, this is about our current status in North Africa and 
what our policies and orientation should be going forward. We 
want to break down barriers in the region. We want to hear 
about economic opportunities and the potential for economic 
integration, and we also want to talk about other initiatives 
such as the Trans-Sahara Counterterrorism Partnership which 
works with 10 countries in west North Africa, including 
Tunisia, Morocco, and Algeria.
    I will reserve opening statements for Senator Risch for 
when he arrives and move right to the panel. Let me now 
introduce the first panel to you.
    Ambassador Richard Schmierer is the Acting Principal Deputy 
Assistant Secretary of State in the Bureau of Near Eastern 
Affairs. He served as Ambassador to Oman and is the Deputy 
Assistant Secretary of State for Iraq. He began his diplomatic 
career in 1980 and has served all over Europe and the Middle 
East.
    Ms. Amanda Dory currently serves as the Deputy Assistant 
Secretary of Defense for African Affairs in the Office of the 
Secretary of Defense. Prior to this, she served as the Deputy 
Assistant Secretary of Defense for Strategy and received a 
Presidential Rank Award for her work on the 2010 Quadrennial 
Defense Review. Her nongovernmental experience includes 
positions with the Carnegie Endowment for International Peace, 
Foreign Policy Magazine, and the Nuclear Non-Proliferation 
Project.
    And finally on the first panel, Ms. Alina Romanowski 
currently serves as the Deputy Assistant Administrator for the 
Middle East Bureau of USAID. Since March 2013, she has 
fulfilled the duties of Assistant Administrator. She oversees a 
large and varied portfolio that provides about $1.5 billion 
annually in assistance across the Middle East region. Ms. 
Romanowski also served for 14 years at the Defense Department 
in senior positions involving the Near East and South Asia.
    I would like to ask the witnesses to deliver opening 
statements in the order in which I introduced you, and 
following that we will begin questions and answers.
    So, Mr. Schmierer, to you first.

  STATEMENT OF RICHARD SCHMIERER, PRINCIPAL DEPUTY ASSISTANT 
 SECRETARY OF STATE, NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Mr. Schmierer. Well, Chairman Kaine, thank you very much 
for the invitation to be here today, and it is a particular 
honor to appear here with my colleagues, Deputy Assistant 
Secretary for Defense Amanda Dory, and Deputy Assistant 
Administrator Alina Romanowski, with whom I enjoy working on a 
regular basis.
    We welcome the opportunity to speak to you on the issues 
you have just outlined and certainly look forward to answering 
any questions that you or your colleagues may have.
    I have a fuller statement which I asked to be submitted for 
the record.
    Senator Kaine. Without objection.
    Mr. Schmierer. And with your permission, I would like to 
just simply summarize my remarks.
    As you have just indicated, North Africa, which is known in 
Arabic as the Maghreb, is a region of tremendous potential. It 
is the birthplace of the Arab Awakening, and it is currently 
undergoing a difficult but critical transformation. Tunisia 
pursues efforts to achieve the democratic promise of its 2011 
revolution, as Libya continues to undertake its democratic 
transition while confronting numerous challenges on the 
political, security, and economic fronts. Morocco and Algeria 
have undertaken a more gradual reform process. They remain key 
regional sources of stability and have assumed increasingly 
important roles in our global effort to combat terrorism and 
extremism.
    We continue to enjoy a very strong bilateral partnership 
with Morocco, a relationship that we look forward to 
strengthening during the visit of King Mohammed VI this week to 
Washington. This is an opportunity to discuss the best means of 
promoting security and prosperity in the region.
    Under King Mohammed VI, the political system has gradually 
liberalized. A new constitution was adopted in 2011, and 
Morocco's first Islamist-led government won nationwide 
democratic elections. We will continue to support Morocco as it 
undertakes these important reforms.
    In Algeria, Mr. Chairman, we have also built a strong 
relationship characterized by our shared interests to combat 
terrorism and facilitate greater regional stability. In 
addition, we are focused on developing a more robust economic 
partnership and supporting civil society development. We have 
encouraged Algeria to continue to expand its regional 
leadership role to stabilize neighboring states, which struggle 
to address terrorist threats, loose weapons, and porous 
borders.
    Our continued engagement in Libya is absolutely essential, 
Mr. Chairman. It is in our national security interest to ensure 
that Libya becomes a stable and democratic partner. Faced with 
daily violence, the Libyan Government has been unable to 
address the country's overlapping challenges. We stand ready to 
support future elections in Libya, as well as constitutional 
drafting and national dialogue efforts necessary for security 
and governance to take root.
    As a part of this effort, we have agreed to train 5,000 to 
8,000 members of a general purpose force with Italy and the 
United Kingdom to be the core of a new Libyan Army. We are also 
in the process of beginning to implement a global security 
contingency fund border security program to provide technical 
expertise, training and equipment to build Libya's border 
security capacity.
    Yet, security is only part of the solution. We also welcome 
the opportunity with our partners to help the Libyan Government 
build its governance capacity.
    And finally, Mr. Chairman, we continue to view Tunisia as 
one of the region's best hopes for a successful transition to 
democracy. The assassination of an opposition politician in 
July led to calls for the dissolution of the government. Civil 
society mediators have been facilitating negotiations between 
the government and the opposition. We are encouraging Tunisian 
leaders across the political spectrum to continue efforts to 
finalize a constitution that respects the universal rights of 
all Tunisians and to set an election date. It also remains a 
top priority to help bolster Tunisian security capacity.
    This region remains vital to protecting our national 
interests as we look to maintain relationships with key allies 
and to nudge nascent democracies through difficult transitions, 
with the aim of promoting stability and countering extremist 
threats.
    Chairman Kaine, thank you for the opportunity to testify 
before you today. I look forward to answering your questions.
    [The prepared statement of Mr. Schmierer follows:]

                Prepared Statement of Richard Schmierer

    Chairman Kaine, Ranking Member Risch, members of the subcommittee, 
it is an honor to appear before you to provide background on U.S. 
engagement and policy in North Africa. As you know, this is an area of 
strategic importance to the Obama administration.
    I am also pleased to appear before you today with USAID Deputy 
Assistant Administrator Alina Romanowski and Deputy Assistant Secretary 
for Defense Amanda Dory. I have had the pleasure of working closely 
with both Ms. Romanowski and Ms. Dory for some time to further our 
foreign policy objectives in the region and to protect our national 
security interests. We welcome the opportunity to speak to you today 
and look forward to answering any questions you may have regarding 
North Africa and our policy.
    Mr. Chairman, as you know, North Africa--known in Arabic as the 
Maghreb--is a region of tremendous potential. The birthplace of the 
Arab Awakening, it is currently undergoing a difficult but critical 
transformation. Tunisia continues efforts to achieve the democratic 
promise of its 2011 revolution, even as it faces significant security 
and economic challenges. Libya continues to undertake a democratic 
transition following a successful revolution, yet confronts numerous 
challenges on the political, security, and economic fronts. Libya 
struggles with the daily threat of violence posed by a lack of security 
and political consensus, yet our continued engagement there is 
absolutely essential. Morocco and Algeria have undertaken more gradual 
reform processes. They remain key regional sources of stability and 
have assumed increasingly important roles in our global effort to 
combat terrorism and extremism. At the same time, the strained 
relationship between Algeria and Morocco also limits regional 
cooperation and development, which is essential if any regional bodies 
are to evolve into credible forces for regional stability--in the 
Maghreb and the Sahel.
                                morocco
    We continue to enjoy a very strong bilateral relationship with 
Morocco, focused on promoting regional stability, supporting democratic 
reform efforts, countering violent extremism, and strengthening trade 
and cultural ties. Morocco--a major non-NATO ally since 2004--is one of 
our closest counterterrorism partners in the region, and an active 
member of the Global Counterterrorism Forum. During its current term on 
the U.N. Security Council, Morocco is playing an important role in 
international efforts to end the Syrian civil war. We also enjoy a 
strong economic relationship; a bilateral free trade agreement that 
entered into force in 2006 has increased bilateral trade by 244 
percent.
    We look forward to strengthening this bilateral relationship during 
this week's visit of King Mohammed VI to Washington. This is an 
opportunity for the United States to reaffirm our close strategic 
partnership with Morocco and to discuss the best means of promoting 
security and prosperity in the region. In particular, we look forward 
to deepening our consultations on regional issues, and will stress our 
shared priorities in Mali, Syria, the Maghreb, and the Sahel. We look 
forward to continuing our conversations at the next session of the 
U.S.-Morocco Strategic Dialogue. Unfortunately, Secretary Kerry had to 
postpone the Dialogue in order to attend urgent negotiations in Geneva 
in mid-November, but we look forward to rescheduling the Strategic 
Dialogue soon.
    Under King Mohammed VI, the Moroccan political system has gradually 
liberalized; the King founded the Arab world's first truth and 
reconciliation commission--to investigate abuses that occurred during 
his father's reign--and expanded women's rights. A new constitution was 
adopted in 2011, and Morocco's first Islamist-led government won 
nationwide democratic elections, but much progress remains to be made 
on implementing the guarantees and institutions including increasing 
engagement of its citizens, under the new constitution. We have a 
robust dialogue with the Moroccan Government on human rights and ways 
in which we can support the ongoing process of political reform.
    We will continue to support Morocco as it undertakes these 
important reform efforts. Our bilateral assistance--roughly $31 million 
in FY 2013--focuses on promoting economic, political, and social 
reforms; deepening our security partnership by supporting modern 
military and law enforcement agencies; promoting export control and 
antiterrorism as well as countering violent extremism efforts; 
developing a professional criminal justice system; and encouraging 
broad-based economic growth that provides expanded opportunities for 
women and youth. Our flagship assistance program has been Morocco's 
$698 million Millennium Challenge Corporation (MCC) compact, which 
closed in September and focused on agriculture, fisheries, and 
artisans.
    With regards to the Western Sahara, we support the United Nations-
led process designed to bring about a peaceful, sustainable, and 
mutually acceptable solution to the Western Sahara question. We also 
support the work of the U.N. Secretary General's Personal Envoy for the 
Western Sahara and urge the parties to work toward a resolution.
                                algeria
    Algeria and the United States have built a strong bilateral 
relationship, characterized by our shared interests to combat terrorism 
and facilitate greater stability in the region. We are also focused on 
developing a more robust trade and economic partnership and supporting 
the development of civil society groups. Unfortunately, Secretary Kerry 
had to postpone the U.S.-Algeria Strategic Dialogue in order to attend 
urgent negotiations in Geneva earlier this month, and we look forward 
to rescheduling it soon.
    Algeria has made steady and consistent progress on human rights and 
political transparency over the past 20 years. We are encouraging the 
government to create space for a more vibrant civil society and 
inclusive democratic process through supporting small civil society 
initiatives, such as funding training for local election monitors. We 
also aim to increase educational exchanges with young Algerians, 
including promoting English language learning.
    The wealth from Algeria's significant hydrocarbon reserves has 
empowered the state at the expense of overall economic development, 
dampening employment, and the development of human capital. We continue 
to encourage Algeria to make market-oriented changes that expand job 
opportunities and increase its attractiveness to foreign direct 
investment. With that in mind, we are working to strengthen our trade 
relationship with Algeria, and are seeking to reactivate the 2001 Trade 
and Investment Framework Agreement. General Electric recently signed a 
$2.7 billion deal to provide gas turbines to Algeria, an example of the 
benefits of our efforts to promote U.S. business in Algeria. This deal 
alone will help create 4,000 American jobs.
    We have encouraged Algeria to continue to expand its regional 
leadership role to help stabilize neighboring states, which struggle to 
address terrorist threats, loose weapons, and porous borders. Algeria's 
experience fighting an Islamist insurgency during the 1990s resulted in 
a well-equipped and battle-hardened military that constitutes the 
strongest counterterrorism force in the region. We will continue to 
encourage Algeria to use this expertise to train and partner with less 
experienced militaries and law enforcement units in the region to help 
ensure greater stability in the Sahel and Maghreb. Algeria has 
purchased U.S. equipment via Direct Commercial Sales, but has not 
overcome its significant reservations about the Foreign Military Sales 
program. We also support countering violent extremist efforts seeking 
to provide positive alternatives for at risk youth.
                                 libya
    Since the 2011 revolution, Libya has faced significant political 
and security challenges. Yet our continued engagement there is 
absolutely essential. It is in our national security interest to ensure 
Libya becomes a stable and democratic partner capable of addressing 
regional security challenges and advancing our shared interests. A 
successful democratic transition will result in a strategic partner 
with significant energy reserves and the ability to exert a positive 
and stabilizing influence in a critical region.
    Mr. Chairman, let me assure you that, despite its challenges, Libya 
is making progress. In the first credible, transparent, and largely 
peaceful elections in a generation, Libyans elected a General National 
Congress (GNC) in July 2012, and the government continues to take steps 
toward establishing a constitution. More recently, the Prime Minister's 
staff, and the United Nations Support Mission in Libya (UNSMIL) have 
taken steps to move a national dialogue process forward to help resolve 
political differences. The Libyan Government and GNC have taken steps 
to pass a transitional justice law, which will help guide national 
justice and reconciliation efforts. The Justice Minister has also taken 
to heart recommendations for prison reform. The United States has 
signed memoranda of understanding with the Libyan Government to 
increase cooperation on education reform, cultural preservation, and 
chemical weapons destruction. In addition, 681 candidates for the 
constitutional drafting committee registered in October and November 
2013. NATO recently agreed to respond positively to Prime Minister 
Zeidan's request for support in security sector capacity building.
    Yet while the government enjoys democratic legitimacy, it lacks the 
ability to project its authority across the country or fulfill many 
core government functions. Faced with competing factions and the daily 
threat of violence, the Libyan Government and political actors have 
been unable to address the country's overlapping challenges. A 
political agreement is necessary to advance the National Dialogue and 
enable the constitution-drafting process to unfold, empowering the 
government to improve governance and establish security in the interim. 
The government must also work to demonstrate that Libya's vast natural 
resources will be used to benefit the entire Libyan population, and use 
those resources to promote economic growth. We stand ready to support 
future elections in Libya, as well as constitutional drafting and 
national dialogue efforts necessary for security and governance to take 
root.
    After 42 years of dictatorship, Libya suffers from instability and 
poor governance due to weak institutions, wide, porous borders, huge 
stockpiles of loose conventional weapons, and the presence of militias, 
some of whom have extremist ties. Without capable police and national 
security forces that work with communities, security, and justice 
sector institutions struggle to fulfill their mandate, and rule of law 
is undermined, enabling criminality, illicit trade, and frustration to 
grow. The government has struggled to wrest power and influence from 
militias, which continue to wield local and regional power; the absence 
of political consensus on the way forward hampers these efforts. In a 
direct challenge to the weak central government, various actors--
including federalist, militia, and ethnic groups--have blocked 
production and exports at many of Libya's onshore facilities.
    Our assistance efforts are focused on providing support in order to 
build the capacity of Libyan institutions to face these challenges and 
to ensure a peaceful transition to democracy. Since Libya is a wealthy 
nation, we view our assistance in these areas as seed money intended to 
jump-start and unlock Libyan investment in programs that ultimately the 
government must own. To improve the government's ability to establish 
stability throughout the country, we responded positively to a request 
this spring from Prime Minister Zeidan that we help to train a General 
Purpose Force (GPF) to be the core of a new Libyan Army. At the U.K.-
hosted G8 summit in June, we pledged to train a 5,000-8,000 member GPF, 
prompting the U.K. and Italy to pledge to train 2,000 members each. The 
GPF assistance will be paid for by the Libyan Government through a 
Foreign Military Sales case which will need to be congressionally 
notified.
    Border security is also a critical U.S. and international concern 
in Libya. Libya's uncontrolled borders permit the flow not only of 
destabilizing Qadhafi-era conventional weapons, but also violent 
extremists throughout North Africa, the Middle East, and the Sahel. The 
flow of these foreign fighters has increased since the fall of Qadhafi 
and was highlighted by the January 2013 attack in Amenas, Algeria. We 
are in the process of beginning to implement a Global Security 
Contingency Fund (GSCF) border security program to provide technical 
expertise, training, and limited equipment to build Libya's 
interministerial border security capacity to address security along its 
southern land border. This program includes training and equipment 
programming for Libya's neighbors--Chad, Niger, and Algeria--to improve 
border security cooperation with Libya. In addition, we have a GSCF 
training and equipment program to build special operations forces 
capacity.
    Libya's European partners also provide significant amounts of 
security and justice sector assistance to Libya. We ensure that our 
assistance complements their efforts and responds to the security needs 
identified by the Libyan Government. Given constraints on Libyan 
capacity to accept international assistance, a difficult security 
environment, and persistent instability, implementing pledged 
assistance is challenging, and often takes more time than expected. If 
we continue to help Libya build its capacity, however, these challenges 
can lessen.
    We have made commitments to support Libya's security sector with 
the knowledge that enhanced security is only part of the solution. We 
also welcome the opportunity, with our international partners, to help 
the Libyan Government build its governance capacity. We support the 
Libyan Government and civil society groups in their work to construct 
the foundations of a new democratic society in Libya through capacity-
building programs for nascent civil society organizations, political 
parties, the GNC, selected local councils, and media institutions, and 
work with partners to engage women and youth as active participants in 
the democratic transition.
                                tunisia
    Tunisia remains one of the Middle East and North Africa's best 
hopes for a successful transition to democracy. Efforts continue to 
finalize a new constitution and set a date for democratic elections for 
President and Parliament. Tunisia's constituent assembly--tasked with 
drafting the constitution--completed a fourth draft in June. This draft 
incorporates human rights norms, including equality between women and 
men, and respect for rule of law.
    As with all transitions, of course, there are also challenges. This 
year, there have been two assassinations of opposition politicians: one 
in February and one in July.
    Following the July assassination, there were widespread, peaceful 
demonstrations calling for the dissolution of the government. Civil 
society mediators have since been facilitating negotiations between the 
government and the opposition, with the goal of implementing a 
political transition roadmap. We are encouraging Tunisian leaders 
across the political spectrum to continue their efforts to finalize a 
constitution that respects the human rights of all Tunisians and to set 
a date for credible and transparent elections so the Tunisian people 
can determine their country's future.
    As we saw with the unfortunate killings of politicians and most 
recently the attempted suicide attacks in tourist areas, violent 
extremists continue to seek to derail the country's efforts to 
transition to democracy peacefully and successfully. Over the past 
year, the Tunisian Government has taken a more aggressive stance 
against extremism, by raiding weapons caches and undertaking an 
operation to root out terrorists in the country's western region. In 
late August, the Government of Tunisia designated Ansar al Sharia--
Tunisia (AAS-T) a terrorist organization, and the security forces have 
since banned the group's activities and made several high level 
arrests.
    This approach is not without its challenges. The Tunisian military 
and security forces require additional training and equipment to 
counter the newly evolving terrorist threat. Improving and deepening 
our security cooperation is of top importance in our bilateral 
relationship. We have bolstered our assistance to help Tunisia reform 
its criminal justice sector to improve its ability to protect Tunisians 
and foreigners alike, as well as confront domestic and regional 
security challenges. For example, in September 2013, our two countries 
signed a letter of agreement to expand programming to reform and 
improve the capacity of the police and corrections officials. The other 
challenge is ensure that this aggressive, security based approach is 
balanced with proven methods to prevent recruitment into violent 
extremist organizations. We are working with Tunisia to explore ways to 
provide at-risk groups with alternatives and preventing further 
marginalization or disconnection of these groups.
    We also continue to provide foreign assistance via a number of 
mechanisms to support Tunisia's transition from dictatorship to a 
prosperous democratic country. On the economic front, we are helping 
Tunisia expand economic growth and opportunity to all citizens, and 
encouraging it to undertake market-oriented and institutional reforms. 
Our focus with existing programs has been to spur job creation and 
provide entrepreneurship training as well as to enhance access to 
finance for small and medium enterprises. At the same time, we continue 
to fund programs that support Tunisia's democratic political processes 
and plan to support international and domestic elections observation 
missions.
                        protecting our interests
    Chairman Kaine, Ranking Member Risch, and members of the 
subcommittee, I want to thank you for the opportunity to testify before 
you today. Certainly, we are aware that our budgets are facing 
increasing pressure, but this region remains vital to protecting our 
national interests, as we look to maintain relationships with key 
allies and to nudge nascent democracies through difficult transitions, 
with the hope of promoting stability and countering extremist threats 
in the Middle East and Africa. With careful, targeted assistance, and 
smart diplomatic engagement, we are successfully advancing our key 
strategic interests.
    Thank you again for your time and attention. I look forward to 
answering your questions.

    Senator Kaine. Thank you very much.
    Ms. Dory.

    STATEMENT OF AMANDA DORY, DEPUTY ASSISTANT SECRETARY OF 
     DEFENSE, AFRICAN AFFAIRS, U.S. DEPARTMENT OF DEFENSE, 
                         WASHINGTON, DC

    Ms. Dory. Chairman Kaine, I am pleased to appear before 
this subcommittee for the first time to provide an update on 
the security situation in North Africa and the Department of 
Defense's engagement strategy in the region. DOD is committed 
to working closely with the State Department to enhance U.S. 
Government security assistance to build the capacity of North 
African security forces. Our strategic approach recognizes that 
developing strong and responsive defense institutions can 
support regional stability, allowing partner militaries to 
operate under civilian authority while respecting the rule of 
law and international human rights.
    Each of the four countries under discussion today faces a 
differ- 
ing array of political, economic, and governance challenges as 
a result of the political upheavals that you have already 
cited. North African countries will continue to face security 
challenges, and addressing those challenges will take time, 
particularly in the case of Libya.
    Our goals are to focus on long-term institution-building 
and regional cooperation in coordination with other countries, 
to be supportive of host nation requests, and to maintain a 
limited and effective U.S. military footprint in the region.
    In Morocco, Algeria, and Tunisia, DOD maintains close 
military-to-military ties with our respective senior military 
and civilian counterparts. Our shared security goals include 
countering terrorism and enhancing cross-border security. We 
regularly engage with counterpart defense institutions in each 
of the three governments on a bilateral basis to ensure 
alignment of goals and prioritization of security cooperation 
activities.
    In addition to bilateral engagements, the Trans-Sahara 
Counterterrorism Partnership, TSCTP, is a multiyear regional 
program that brings State Department, Department of Defense, 
and USAID together to build the capacity and resilience of the 
governments and communities in the Sahel and Maghreb to address 
the threat of violent extremist organizations.
    A few quick remarks on each of the countries.
    With Libya, Libya remains a country with a very difficult 
democratic transition. Militia violence and consequent 
retributive attacks continue within the country. The Libyan 
Government is unable to control its borders, contributing to 
instability from Mali westward within the Sahel. The Department 
of Defense is prioritizing assistance to focus on building 
Libyan security institutional capacity and on improving the 
government's ability to counter terrorism, and to secure and 
destroy its chemical weapons stockpiles.
    On the latter point, our chemical weapons abatement program 
with Libya is on schedule to eliminate remaining Libyan 
chemical weapons by the end of 2013 in accordance with Libya's 
international commitments.
    And thanks to congressional support, this fiscal year the 
United States will work with Libya to develop their capacity to 
conduct counterterrorism operations and border security, 
particularly along the southern land border.
    Additionally, in response to requests from the Prime 
Minister, we have offered to provide General Purpose Force 
military training, as already mentioned. The training is 
intended to help the government build the military it requires 
to protect government institutions and maintain order. This 
effort builds on the G8 summit announcement that focused on the 
expansion of support for Libya's security sector.
    In Tunisia, Tunisia's military deserves tremendous credit 
for supporting and protecting the population during Tunisia's 
democratic transition. The government continues to grapple with 
the threat of violent extremism. Our assistance to the security 
sector focuses on counterterrorism support, border security 
training, and a continuation of long-standing programs such as 
the International Military Education and Training Program and 
Foreign Military Financing.
    Algeria has been a critical security partner in countering 
regional violent extremist organizations. In particular, it is 
a linchpin in the struggle against Al Qaeda in the Islamic 
Maghreb, AQIM, and its affiliates. The January 2013 terrorist 
attack against the In Amenas oil facility highlighted the 
growing transnational threats in the region. The Algerian 
military continues to conduct successful interdiction 
operations on its southern border against AQIM and affiliates. 
Additionally, Algeria provides training and equipment 
assistance to its neighbors, contributing to broader regional 
efforts. DOD engages with Algeria across a range of activities, 
to include IMAT information-sharing and exercises.
    With Morocco, the United States and the Kingdom of Morocco 
share a long history of bilateral relations. Morocco has been a 
strong partner in the struggle against terrorism. The visit of 
the King this week has already been referenced. The Secretary 
of Defense and Secretary of State had an excellent meeting with 
him yesterday to discuss shared concerns, and our long-standing 
security cooperation with the Moroccans continues.
    In conclusion, thank you for the chance to discuss today 
U.S. military cooperation in the Maghreb as it supports broader 
U.S. foreign policy, and I look forward to your questions.
    [The prepared statement of Ms. Dory follows:]

                   Prepared Statement of Amanda Dory

    Chairman Kaine, Ranking Member Risch, and distinguished members of 
the subcommittee, I am pleased to appear before you to update you on 
the security situation in North Africa and the Department of Defense's 
engagement strategy in the region in coordination with other 
interagency partners.
                              introduction
    The Department of Defense is committed to working closely with the 
Department of State to enhance U.S. Government security assistance to 
build the capacity of North African security forces. Our strategic 
approach recognizes that developing strong and responsive defense 
institutions can support regional stability, allowing partner 
militaries to operate under civilian authority while respecting the 
rule of law and international human rights.
    The effects of the Arab Awakening in North Africa continue to 
reverberate within the region and beyond its borders into the Sahelian 
states of sub-Saharan Africa. Libya remains a key source of instability 
in North Africa and the Sahel. Thus, the Department of Defense is 
working closely with its interagency colleagues and partner nations to 
assist the Libyan Government in training its security forces and 
strengthening Libyan Government institutions.
    In Morocco, Algeria, and Tunisia, the Department of Defense 
maintains close military-to-military ties with respective senior 
military and civilian Ministry of Defense counterparts. All three 
countries are committed to a security dialogue and partnership with the 
United States, and they share our goals of countering terrorism and 
enhancing cross-border security. We engage with the three governments 
on a bilateral basis every 12-18 months to ensure our shared security 
goals are aligned and U.S. Government security assistance is 
prioritized accordingly.
    The negative effects of terrorism and growing violent extremism 
have been experienced by all our partners in North Africa, and have 
underscored to them the gravity of the threat and the value of 
partnering with the United States and the international community to 
address shared security challenges, which extend beyond the Maghreb. 
For example, each country is cognizant that its nationals are traveling 
to Syria to support violent extremists fighting against the Syrian 
Government, and is aware of the danger to North African security if and 
when those fighters return.
    To address regional instability in North Africa and the Sahel more 
broadly, the U.S. Government established, in 2005, the Trans-Sahara 
Counterterrorism Partnership (TSCTP). The TSCTP is a multiyear, 
regional program to build the capacity and resilience of the 
governments and communities in the Sahel and Maghreb to address the 
threat of violent extremist organizations. The TSCTP also provides a 
means to improve regional and international cooperation and 
information-sharing.
          country-by-country security environment/dod programs
Libya
    Libya remains a country in a difficult democratic transition, and 
the path to stability continues to be a challenging one for the weak 
government institutions in Tripoli. The recent kidnapping and release 
of Prime Minister Zeidan underscore the serious shortcomings in the 
Libyan security environment. Militia violence and consequent 
retributive attacks continue within the country. The Libyan Government 
is unable to control its borders, and weaponry smuggled from Libya is 
fueling instability from Mali westward within the Sahel. We and our 
Libyan partners are working on joint programs designed to address the 
needed skill sets of Libyan security forces to address these challenges 
adequately.
    The Department of Defense is prioritizing its assistance to focus 
on building Libyan security institutional capacity and on improving the 
Libyan Government's ability to counter terrorism, counter weapons 
proliferation, and secure and destroy its chemical weapons stockpiles. 
Thanks to congressional support, the United States is working with 
Libya to develop their capacity to conduct counterterrorism operations 
via a $8.42M Section 1206 Special Operations Support company and 
medical training program; and a $7.75M Global Security Contingency Fund 
(GSCF) SOF company build program. DOD will also provide training for 
the larger interagency GSCF Under the joint State-DOD GSCF authority, 
we are also pursuing a $14.9M program to provide technical expertise, 
training, and limited equipment to build Libya's interministerial 
(i.e., MOD, MOI, and Customs) border security program ($14.9M) capacity 
to address security along its southern land border. This program 
includes training and equipping to build a border security company, and 
programming for Libya's neighbors--Chad, Niger, and Algeria--to improve 
border security cooperation with Libya. We remain hopeful that these 
projects will positively impact Libya's security situation.
    An additional program that the United States is working with Libya 
is a $45 million chemical weapons abatement program at Waddan, Libya 
where we have installed a static detonation chamber, and a U.S. 
contractor is ramping up operations and is on schedule to eliminate 
remaining Libyan chemical weapons by the end of 2013 in accordance with 
Libya's international commitments.
    In response to a request from Libyan Prime Minister Zeidan, the 
United States has offered to provide General Purpose Force military 
training for 5,000-8,000 personnel. This training effort is intended to 
help the government build the military it requires to protect 
government institutions and maintain order. It is one element of the 
targeted security programs the United States has provided to Libya 
since 2011, building on the February 2013 Paris Ministerial-level 
meeting on supporting Libya's security and justice sector needs and 
British Prime Minister Cameron's announcement at the G8 summit in June 
about expanding international support for Libya's security sector. The 
United Kingdom and Italy have also committed to train 2,000 Libyan 
General Purpose Forces personnel, each.
    We expect the U.S.-led training to begin via FMS in the spring of 
2014 at a U.S.-leased/run training facility in Bulgaria and to continue 
over a number of years based on cohort size and the pace of training. 
The Government of Libya has committed to fund this training program and 
provided initial financial deposits. The United States will work 
closely with Libya to ensure all candidates for training are properly 
vetted to ensure that they meet human rights standards in accordance 
with U.S. law.
    All U.S. assistance will continue to be coordinated with the U.N. 
Support Mission in Libya (UNSMIL) and with European partners who have 
also offered substantial security sector assistance to the Government 
of Libya.
Tunisia
    Tunisia's military deserves tremendous credit for supporting and 
protecting the population during Tunisia's democratic transition. More 
recently, following a series of terrorist attacks on the Tunisian 
military in the Chaambi Forest beginning in April 2013, as well as the 
assassination of two opposition political figures, the Tunisian 
Government continues to grapple with the threat of violent extremism. 
U.S. assistance to the security sector focuses on counterterrorism 
support, border security training, and a continuation of our 
longstanding Foreign Military Financing (FMF) and International 
Military Education and Training (IMET) programs.
    The United States has provided technical assistance, equipment, and 
training to Tunisian Ministries and agencies to make them more 
effective in securing land border crossings, maritime borders, ports, 
and airport and seaport operations. U.S. assistance has also provided 
equipment and relevant training for inspection and/or detection 
equipment.
    Maintenance and upgrade of existing equipment and the addition of 
critically needed procurements through FMF is a U.S. priority to help 
address the Ministry of Defense's (MOD's) broadened mission and to 
reinforce efforts to counter the growing threat of violent extremism. 
The United States is also assisting the Ministry with training through 
IMET funding, with an emphasis on enhancing strategic planning 
capabilities.
Algeria
    Algeria has been a critical security partner in countering regional 
violent extremist organizations. Its strategic location in the Maghreb, 
and its long history combating domestic terrorism and violent 
extremism, make Algeria a linchpin in the struggle against Al Qaeda in 
the Islamic Maghreb (AQIM) and its affiliates and bringing stability to 
the region. The January 2013 terrorist attack against the In Amenas oil 
facility highlighted the growing transnational threats in the region. 
The Algerian military continues to conduct successful interdiction 
operations on its southern border against AQIM affiliates. 
Additionally, Algeria provides training and equipment assistance to its 
Sahel neighbors, contributing to broader regional efforts to curb 
violent extremist groups' transborder movement and activities.
    As a result, the Department of Defense continues to expand 
engagement with Algeria in cooperation with other U.S. Government 
departments and agencies across a range of activities, to include 
information sharing and exercises. The Algerian Government is also 
interested in acquiring U.S. equipment for counterterrorism purposes. 
To address this interest, the Department of Defense is working to 
provide Algeria with equipment and training to enhance Government of 
Algeria defense capabilities. Algeria has acquired U.S. goods and 
services, equipment, and training via direct commercial sales since the 
1980s, including a border security system from Northrup Grumman and 
eight Lockheed C-130 transport aircraft. U.S. bilateral military 
engagement and sustained dialogue is also expanded through the IMET 
program, which is enhancing professionalization and modernization of 
Algeria's Armed Forces.
Morocco
    From the beginning of his reign, King Mohammed VI has recognized 
that democratic political and economic reforms are needed. During the 
Arab Awakening, he continued to respond to popular demands for change 
from within Moroccan society. Nevertheless, the earlier terrorist 
bombing in Casablanca in 2003 was a strong signal that Morocco was not 
immune from violent extremism and the regional threats to stability in 
the Maghreb and Sahel. We anticipate that security cooperation will be 
one of many themes during the King's meeting at the White House 
tomorrow.
    The United States and the Kingdom of Morocco share a long history 
of bilateral relations that is enduring and expansive. A major non-NATO 
ally, Morocco has been a strong partner in the struggle against 
terrorism, and our bilateral military and political cooperation is 
growing. Among the first Islamic countries to condemn publicly the 
attacks of September 11, 2001, Morocco provided forces in Desert Storm, 
Bosnia, and Kosovo. Additionally, Morocco is a strong contributor to 
global U.N. peacekeeping operations.
    Our security cooperation programs with Morocco enhance Morocco's 
military professionalism through the International Military Education 
and Training program and help to increase Morocco's effectiveness and 
capabilities in the context of multilateral operations through 
provision of Foreign Military Financing and Excess Defense Articles. 
Additionally, U.S. Africa Command partners with Morocco to execute a 
robust program of Military-to-Military activities and joint military 
exercises, including AFRICAN LION--a significant joint and combined 
exercise on the continent. U.S. security support to Morocco has a 
cascade-like effect on the region as Morocco in turn provides 
assistance to more than 20 African countries through training and 
humanitarian assistance.
                               conclusion
    Each of the four countries under discussion today faces a differing 
array of political, economic, and governance challenges as a result of 
the political upheavals of the last several years in the region. North 
African countries will continue to face security challenges as a 
result, and addressing those challenges will take time, particularly in 
the case of Libya. Our goals are to focus on long-term institution 
building and regional cooperation in coordination with other countries, 
to be supportive of host government requests, and to maintain a small 
and effective U.S. military footprint in the region.
    Thank you for your time and attention today. We appreciate your 
interest in, and support of, U.S. military cooperation in the Maghreb 
as it supports broader U.S. foreign policy and national security 
objectives in the region, and I will be pleased to answer any 
questions.

    Senator Kaine. Thank you.
    Ms. Romanowski.

STATEMENT OF ALINA ROMANOWSKI, DEPUTY ASSISTANT ADMINISTRATOR, 
MIDDLE EAST BUREAU, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT, 
                         WASHINGTON, DC

    Ms. Romanowski. Chairman Kaine, thank you for the 
opportunity to appear before you today to discuss USAID's 
ongoing efforts to support U.S interests in North Africa.
    As my colleagues have said, North Africa is a region of 
many possibilities and great importance, but also one that 
faces daunting challenges, especially in this transition 
period.
    For the past 3 years, USAID has supported Morocco, Tunisia, 
and Libya as they write new constitutions, reform institutions, 
as they carry out credible and transparent elections, and as 
citizens advocate for increased political participation. Our 
programs target the development challenges that span North 
Africa, including high unemployment and the lack of economic 
growth, and work to address factors that push local populations 
toward violent extremism.
    The Arab Awakening has been a regional phenomenon, but each 
country experiences it differently. So we have tailored our 
programs to each country's specific needs.
    In Libya, USAID has supported the transition by developing 
governance institutions and building an emerging civil society. 
As Libyans begin to draft a new constitution, USAID is working 
to ensure that the Libyan people are engaged in that process.
    We are also promoting women's empowerment by supporting 
programs that engage women in the political process, like a 
series of training programs where some women were provided 
internships with the High National Elections Commission, and 
these women were, in fact, permanently hired.
    USAID is supporting women through economic growth programs 
that strengthen women entrepreneurs by providing business 
skills training and improving their access to finance through 
brokered relationships with financial institutions.
    Tunisia remains one of the region's best hopes for a 
successful transition to democracy. USAID strongly supports the 
Tunisian people as they lay the foundation for economic 
prosperity that empowers a new generation, strengthens civil 
society, and solidifies the institutions of democracy.
    To promote economic growth, we launched the Tunisian-
American Enterprise Fund, a signature United States initiative 
that will invest in growing the Tunisian economy. Currently 
capitalized at $40 million, the Enterprise Fund is designed to 
develop the much-needed private sector in Tunisia, expand 
access to credit, and create opportunities for Tunisian small- 
and medium-sized businesses.
    In 2012, USAID provided the provisional government a $100 
million cash transfer that supported its short-term budget 
needs. USAID also subsidized the cost of a $485 million loan 
guarantee to help address Tunisia's longer term financing 
needs.
    AID is encouraging job creation in high-impact, growing 
sectors of the economy like information communications 
technology. Our ICT program recently organized a job fair where 
4,500 young Tunisians met with over 200 employers to discuss 
job opportunities. Additionally, our work in the ICT sector has 
generated over 2,400 new jobs for Tunisians.
    USAID is also actively engaged in helping Tunisians build a 
peaceful and stable democratic political process. During 
Tunisia's historic October 2011 elections, USAID supported the 
only nationwide campaign targeting women voters, and also a 
get-out-the-vote campaign that focused on youth. For Tunisia's 
upcoming elections, USAID will support international and local 
monitoring activities.
    For over 50 years, USAID and the Government of Morocco have 
had a strong bilateral relationship that continues today. This 
year, to support the ambitious political and economic reform 
goals of the Moroccan Government and respond to the needs of 
the Moroccan citizens, USAID has designed a new 5-year country 
development strategy. This is a focused plan to work side by 
side with the Government of Morocco, civil society, and the 
private sector to enhance the employability of Morocco's large 
youth demographic, improve the education system, strengthen the 
civil society organizations, and improve the credibility and 
transparency of political parties.
    During this week's visit of Mohammed VI, we will launch 
this new strategy, reaffirming our long history of cooperation 
in promoting sustainable development in Morocco.
    So in conclusion, during this time of transition, it is 
essential that AID continue its engagement with the region's 
people and their governments to build free, democratic, 
prosperous, and secure nations. This engagement is vital to 
countering extremist threats, maintaining relationships with 
key allies, and advancing key U.S. strategic interests.
    Chairman Kaine, thank you very much, and I look forward to 
answering your questions today.
    [The prepared statement of Ms. Romanowski follows:]

               Prepared Statement of Alina L. Romanowski

    Chairman Kaine, Ranking Member Risch, and members of the 
subcommittee, thank you for the opportunity to appear before you to 
discuss the political and economic situation in North Africa and 
USAID's ongoing efforts to support U.S interests in the region through 
our programs and assistance.
    Over the last 30 years of my career, I have had the privilege to 
serve across four government agencies, focusing on the Middle East. I 
know firsthand that it is a region of many possibilities and great 
importance, but also one that faces daunting challenges, especially in 
this transition period. This is clearly illustrated in North Africa, 
where the Arab Awakening began. Tunisia--the country where in 2011 a 
single man's frustration and desperation with his economic situation 
touched off a chain of events that would topple governments around the 
region--continues to make progress along its path toward a successful 
transition to democracy. Similarly, in response to its citizens' calls 
for change, the Government of Morocco has laid out an important reform 
agenda of social and economic change and has taken steps toward a more 
inclusive government. In Libya, despite obvious setbacks and ongoing 
security challenges, Libyans have repeatedly expressed their deep 
desire to transform into a democracy, pushing forward with their 
constitutional drafting process and pushing back against unruly 
militias. As you can see, each of these countries' path to a more 
inclusive, responsive government, and ultimately to stability, varies.
    Our continued and flexible engagement to support the efforts of the 
region's people and their governments to build free, democratic, 
prosperous, and secure nations is absolutely essential. For the past 3 
years, USAID has supported these countries in transition as they write 
new constitutions and reform institutions, as they carry out credible 
and transparent elections, and as citizens advocate for increased 
political participation. Our programs also target the major development 
challenges that span North Africa, including the lack of economic 
growth, high unemployment and large youth demographics. A key component 
to the region's economic development and expansion is inclusive growth 
and opportunities for women and minorities. USAID programs focus on the 
engines of economic growth by supporting small- and medium-sized 
enterprises--especially those managed by women--through training, 
marketing assistance and building connections with financial 
institutions.
    As these North African countries experience transition, USAID 
programs are on the forefront of undercutting structural factors that 
push and pull local populations toward violent extremism. We know that 
weak governments and chronic underdevelopment, coupled with 
marginalization of groups, create vulnerabilities to recruitment into 
violent extremist and terrorist groups. Connecting citizens with their 
government and providing economic opportunities is vital. Our 
governance programs highlight constituent outreach and civil society 
capacity-building to shape the foundations of democratic nations. USAID 
economic programs also work to provide educational and vocational 
opportunities for youth and other previously marginalized populations. 
Our work in Libya to bolster the General National Congress and connect 
marginalized communities in the south with Tripoli also helps reduce 
the risk of violent extremism. USAID also has programs specifically 
targeting those at risk for recruitment into violent extremist groups. 
For instance, in Morocco, we are working with at-risk youth to connect 
them with vocational education and their local government to better 
engage with their communities. Security and development, therefore, are 
interlinked--connecting citizens with their government, enabling 
government to respond to its citizens, and developing economic 
opportunities to help create secure environments.
    The political transitions surging through North Africa and the 
Middle East have been a regional phenomenon. Yet the reality is that 
each country experiences it differently and continues to transition in 
its own way reflecting the distinct voices of its citizens. As USAID 
supports the efforts of people across North Africa to define their own 
futures, we have tailored our policies and programs to each country's 
specific needs and experiences.
                                 libya
    Our assistance to Libya is an essential component of our continued 
engagement in the region. It is in our national security interest to 
see a successful democratic transition in Libya and ensure we have a 
partner that can address regional security challenges. As such, USAID 
assistance in Libya has focused on supporting democratic transition, 
developing governance institutions, an emerging civil society and an 
engaged citizenry, and promoting women's engagement in Libya's economic 
growth. Since June 2011, USAID's Office of Transition Initiatives (OTI) 
has been working with Libya's civil society and governing authorities 
to build an inclusive and accountable democratic government that 
reflects the will and needs of the Libyan people. USAID partners with 
civil society organizations, local media outlets, and interim governing 
authorities to support inclusive transitional political and justice 
processes, strengthen local initiatives to mitigate conflict that 
destabilizes the transition, and promote the development of effective, 
legitimate governance institutions. USAID continues to support fair and 
effective electoral, political and governing processes in Libya by 
providing technical assistance to the Libyan Government, including the 
High National Election Commission, the Judiciary, the General National 
Congress and elected local councils to help them fulfill their 
responsibilities and communicate more effectively with Libyan citizens.
    USAID is also helping to strengthen the ability of civil society to 
engage fellow citizens and decisionmakers on key issues, such as 
transitional justice, reconciliation and working to promote the 
peaceful reintegration of former revolutionaries. As Libya moves toward 
the next milestone of drafting a new constitution, USAID is working 
with the government and civil society to ensure that the Libyan people 
are informed and engaged in the process. To support national 
reconciliation, USAID is bringing together local council, religious, 
tribal and other community leaders to discuss how they can help their 
communities resolve longstanding conflicts.
    We are also working with local women's organizations to raise 
awareness about important issues to be addressed in the constitution, 
and to help Libyan women advocate for their rights during the 
constitution drafting process. This year, USAID supported a women's 
political leadership program to promote women's participation in the 
political process. After a series of training programs and workshops, 
the program participants were placed into internships with the High 
National Elections Commission (HNEC), the High Judicial Institute, 
General National Congress committees, and constituency offices. All 
those who interned at the HNEC were then hired as permanent staff.
    Last year, USAID launched the War Wounded Project to strengthen the 
Government of Libya's ability to provide rehabilitative care to the 
tens of thousands of Libyans wounded and disabled in the effort to 
topple the Qadhafi regime. USAID provides training to staff in the 
Ministries of Health, Social Affairs and Wounded & Missing to build 
their leadership and management capacity. USAID's original investment 
of $1.5 million to the War Wounded Project has leveraged an additional 
$9 million contribution from the Government of Libya to establish 
Leadership Development Institutes that will provide ongoing technical, 
management, and leadership training to health sector staff. 
Additionally, USAID worked with the U.S.-Libya Business Association to 
encourage private sector contributions to support treatment of the war-
wounded in Libya. For example, a combined contribution of $1.5 million 
from ConocoPhillips and General Electric continued a nursing support 
project initially funded by USAID.
    To support inclusive economic growth in Libya, USAID's Women's 
Economic Empowerment Program is strengthening women entrepreneurs and 
women-owned small and medium enterprises by providing business skills 
training and networking opportunities, and by improving women's access 
to finance through brokered relationships with financial institutions. 
USAID is also providing U.S.-based diaspora entrepreneurs with seed 
capital and technical assistance through a business plan competition to 
help start or expand businesses in Libya.
                                tunisia
    Tunisia remains one of the region's best hopes for a successful 
transition to democracy. USAID strongly supports the Tunisian people as 
they lay the foundation for a future of economic prosperity that 
empowers a new generation, strengthens civil society and solidifies the 
foundation of democracy.
    The development and growth of a robust and inclusive private-
sector-led economy in Tunisia is central to the success of Tunisia's 
long-term political and economic security as well as to U.S. interests 
in Tunisia and in the broader region. The Tunisian-American Enterprise 
Fund (TAEF), announced by President Obama in May 2011, is a signature 
U.S. initiative that will invest in the Tunisian economy to unlock the 
benefits of private-sector-led growth. Currently capitalized at $40 
million, the TAEF will invest in small and medium enterprises to 
promote inclusive economic growth and employment. The TAEF will help 
address gaps in financing for entrepreneurs and small businesses that 
overwhelmingly drive Tunisia's private sector growth and encourage 
Tunisia to undertake market-oriented and institutional reforms.
    In 2012, USAID provided a $100 million cash transfer that supported 
the short-term budget needs of the provisional government. 
Additionally, USAID subsidized the cost of a U.S. guarantee of a $485 
million Tunisian sovereign bond to help address Tunisia's longer term 
external financing needs.
    Encouraging job creation is another key element in USAID's support 
for Tunisia's economic growth. As such, USAID has developed programs 
that enhance and diversify the education and job skills necessary for a 
nation's economic growth. For example, in partnership with the 
University of Texas San Antonio, we are in the process of launching 24 
university career centers at six college campuses across Tunisia to 
help college students and graduates not only look for work but develop 
their careers. These entrepreneurs, and the businesses they create, are 
the underpinning of a future vibrant economy in North Africa. Many of 
our programs encourage students to build skills specific to sectors of 
the economy that are growing, like information and communications 
technology (ICT).
    USAID's programs are creating jobs in high-impact sectors. 
Specifically, our work with the ICT sector has generated over 2,400 
jobs. In September, our ICT program organized a job fair in Tunis where 
4,500 young Tunisians met with over 200 employers to discuss job 
opportunities and future careers. Additionally, USAID helped a Silicon 
Valley-trained native Tunisian open a small information technology 
business in the city of Sousee, then assisted in product marketing and 
business plan development and eventually helped him recruit over 75 
young graduates to work at his company.
    We are also helping Tunisians expand a more diverse and qualified 
workforce that is responsive to the country's needs. A USAID-funded 
partnership between the University of Colorado and the Advanced 
Institute of Technology Studies in Sidi Bouzid is preparing graduates 
to contribute to their communities through career training in water 
management, energy efficiency, and renewable energy technologies.
    USAID is also actively engaged in helping Tunisians build a 
peaceful and stable democratic political process and institutions. 
Specific efforts by OTI have focused on encouraging broad participation 
in the political transition with a particular emphasis on youth and 
women's engagement and working with local organizations to identify and 
respond to community priorities. USAID-supported democracy and 
governance activities have included nationwide voter education 
campaigns aimed at getting youth to vote and the only nationwide 
campaign targeting women voters in the lead up to Tunisia's historic 
October 2011 elections. Our programs continue to help build the 
capacity of new democratic institutions and Tunisian civil society 
organizations. Moving forward, USAID will support monitoring 
activities, by both the international and local communities, of 
Tunisia's upcoming elections.
                                morocco
    For over 50 years, USAID and the Government of Morocco have had a 
strong bilateral relationship focused on promoting economic growth, 
improving educational opportunities and strengthening inclusive 
political participation and an active civil society. We also have 
worked together to make substantial improvements in the lives of 
Moroccan citizens, including significantly improving maternal and child 
health, constructing two major dams, transforming thousands of semiarid 
acres into productive use, and providing microfinance loans.
    Despite impressive economic growth over the past few years, Morocco 
still faces many complex challenges, including few employment 
opportunities for youth and an overall literacy rate of only 55 
percent. As recent political transition sweep the region, Morocco has 
experienced a quiet and gradual transformation. The Government of 
Morocco responded to the Arab Awakening by reforming the constitution 
and laying out an ambitious agenda of political, economic, and social 
reforms. Implementing this reform agenda, while maintaining stability 
and security throughout the country, is of utmost importance for 
Morocco's future development and prosperity.
    To help the Government of Morocco achieve its stated reform goals 
and respond to the needs of Moroccan citizens, USAID has developed a 
new 5-year Country Development Cooperation Strategy (CDCS) for 
Morocco--a focused plan to work side by side with the Moroccan 
Government, civil society and the private sector to support progress 
toward key reforms. The new CDCS will focus on workforce development, 
increasing citizen participation in governance and improving primary 
educational achievement. During this week's visit of King Mohammed VI 
to Washington, DC, USAID and the Government of Morocco will celebrate 
the launch of USAID's CDCS, reaffirming our long history of cooperation 
and collaboration based on a common interest in promoting sustainable 
development in Morocco.
    To enhance the employability of the country's large youth 
demographic, USAID will focus on improving the quality of and access to 
career services. We will facilitate partnerships between government 
ministries, Moroccan universities and technical institutes, as well as 
local NGOs and business associations to develop demand-driven workforce 
development services that reach a broad range of youth.
    To increase citizen participation in governance, USAID will support 
the development of civil society organizations to develop their 
constituencies, form effective coalitions and develop policy 
recommendations. USAID will also continue to help political parties 
improve their credibility by increasing the transparency and 
accountability of their internal operations, developing platforms 
reflective of citizen needs and enhancing the involvement and 
leadership of youth and women in politics. Our efforts will provide 
long-term assistance targeting local branches of political parties to 
ensure citizen engagement at the grassroots level. By increasing the 
capacity of civil society to engage the government on behalf of 
citizens and facilitating the development of institutionalized 
mechanisms of civic participation in government decisionmaking, Morocco 
will be better situated to implement its reform agenda in a peaceful 
and sustainable fashion.
    USAID's basic education program also plays a crucial role as 
Morocco strives to meet the needs of its growing youth population. In 
conjunction with Morocco's education reform effort, USAID will promote 
higher levels of educational attainment by targeting early grade 
reading. Poor reading skills increase children's chances that they will 
fall behind in school, setting the stage for future dropout. As such, 
these early grade reading programs are designed to improve early 
literacy and help curb primary grade dropout rates.
    USAID also works to mitigate the drivers of violent extremism as 
part of supporting Morocco's peaceful reform agenda. Morocco has 
experienced several incidents of violent extremism over the past decade 
and, while low, risks of instability are heightened by societal factors 
that contribute to political and economic marginalization. In our 
countering violent extremism programming, we target areas of Morocco 
that suffer from high rates of illiteracy, school dropout, and 
unemployment, and are known breeding grounds for transnational 
terrorist networks. To reintegrate at-risk youth into mainstream 
society, we support nonformal education and vocational training, the 
provision of basic social services, career counseling, and job 
placement. Capacity-building for public and private social service 
providers targeting at-risk youth will increase sustainability and 
expand the reach of program activities.
    Finally, I would like to conclude with Algeria, where USAID has a 
limited presence. While the United States is working to strengthen its 
bilateral relationship with Algeria, USAID currently has few programs 
there. Consistent with our regional efforts to combat terrorism and 
extremism, we are focusing on launching a program in Algeria that aims 
to reduce social and economic exclusion of at-risk Algerian youth.
                               conclusion
    USAID views our assistance programs in the North Africa region as 
an investment in protecting our national interests and in building 
long-term partnerships with the people and the governments of those 
countries. USAID programs will continue to provide the seeds for future 
innovation and technology, to advance economic prosperity and growth, 
and to strengthen regional stability and security. The countries and 
peoples in North Africa continue to face significant challenges, but 
also significant opportunities. We will continue to support them 
through these political and economic transitions. While we recognize 
that our budgets are facing increasing pressures, we are aligning our 
programs to address the challenges and opportunities facing the region. 
We also know that our continued engagement in this region is vital to 
maintaining relationships with key allies, promoting stability, 
countering extremist threats in the Middle East and North Africa and 
advancing our key strategic interests.
    Chairman Kaine, Ranking Member Risch and distinguished members of 
the subcommittee, I appreciate the opportunity to appear before you 
today, and I look forward to answering your questions.

    Senator Kaine. Great. I thank all of you for your opening 
testimony. To have the representatives of our defense, 
diplomacy, and development in the region is wonderful. It gives 
us a full view. And it is also, I think, particularly fitting, 
because AFRICOM, of our geographic commands, probably has the 
most integration of both military and the civilian governmental 
outreach in the African region. So it is fitting that you would 
all be here.
    I want to begin with a question. You have each organized 
your comments largely around reports on the four countries 
individually, talking about the United States bilateral 
activities with respect to each.
    Ms. Dory, you mentioned efforts to promote regional 
cooperation, and I would like each of you to address what is 
going on regionally, what do you do regionally that tries to 
link any or all of these four countries together, and possibly 
beginning with discussions of the current status of the Trans-
Sahara Counterterrorism Partnership, which I know encompasses 
other nations as well. It is a 10-nation partnership.
    But it does seem like there are some regional 
opportunities, so let us pick up on the regional cooperation 
theme. What is the current status? What can we do more to 
promote it?
    Mr. Schmierer. Well, Mr. Chairman, let me start with a few 
general comments. As I think you indicated in your remarks, and 
I think all of us have underscored, the region as a whole is of 
great importance and has a lot to offer in terms of security 
and U.S. interests.
    So one of our challenges has been to ensure, through our 
diplomatic and other engagement, that we can work with the 
governments of all four countries in ways that support each 
other. Clearly, as I was underscoring in my remarks, I think 
Morocco and Algeria present certain strengths which can be 
helpful to Libya and Tunisia.
    So one of the issues--and I think my colleagues can address 
this more directly--is to try to use those strengths for 
security support throughout the region; likewise in terms of 
economic development. Unfortunately, it is a region in which 
there is not sufficient economic integration, and that drags 
down the economic prospects of the region.
    And so one of our efforts--and again, through some of our 
other lines of activity--we are seeking to try to break down 
those barriers and encourage that kind of joint economic 
effort.
    But the countries of the region do provide a lot of value. 
Morocco comes to mind. Morocco is the center of very moderate 
Islam. It is the center which is looked to throughout the 
region as a place to try to help moderate some of the 
extremists and to try to have that kind of influence broadly 
beyond its borders, and we try to work with them to leverage 
that both in the Maghreb and in the Sahel, particularly with 
Mali.
    Senator Kaine. Other comments on the regional cooperation 
side, Ms. Romanowski?
    Ms. Romanowski. Yes. One of the very specific things we are 
doing is also under the G8 umbrella, and it is specifically to 
have launched the Deauville Transition Fund where this is 
actually a multilateral partnership that is intended to provide 
the assistance that bolsters reform efforts across the Middle 
East and North Africa, but also spur some economic 
collaboration, coordination, and some economic growth.
    Through this fund, the United States is helping to marshal 
the international resources to advance the economic reforms. 
The fund is actually administered by the World Bank and funds 
proposals crafted by the governments in partnerships with the 
international financial institutions. It primarily provides 
technical assistance to support these economic reforms and 
opportunities for trade. It tries to build institutions, design 
reform, and strengthen government policies.
    So that is one very significant fund that is designed to 
actually bring the region together. It specifically is limited 
to countries in the partnership, which is Jordan, Tunisia, 
Egypt, Morocco, Yemen, and Libya.
    Senator Kaine. Ms. Dory, could you talk a little bit about 
the Trans-Sahara Counterterrorism Partnership, the current 
status of efforts and how successful that regional effort has 
been?
    Ms. Dory. Senator, I would be glad to. I wove it into the 
remarks because I thought it was important to emphasize the 
regional dynamics that are so critical when you are looking at 
transnational threats and transnational flows across borders.
    One of the challenges we face as the U.S. Government is in 
terms of our implementation. We typically implement on a 
bilateral basis through our embassies. But TSCTP, I think, is 
important as a regional initiative that has been in place for 
close to a decade at this point that really seeks to have 
broader regional effects in the way that resources are aligned, 
whether they are USAID resources, DOD resources, or State 
Department resources. So I think we have had success on the 
U.S. Government side, aligning ourselves to consider regional 
effects.
    The other side of the coin is how do our African partners 
present themselves. And when you look across the continent of 
Africa, regional institutions are at different stages of 
development in each part of the continent, and even the part 
that we are focused on today in North Africa, the Arab Maghreb 
Union, for example, is the relevant regional entity, and it is 
less institutionally developed than some of the other regional 
organizations. In West Africa, for example, ECOWAS has a very 
strong economic component to it, as well as security component 
to it.
    So I think we continually look for opportunities to 
strengthen existing regional institutions, and then to work in 
regional ways when we can. A very concrete example for 
Department of Defense would be when we are working with 
governments to host military exercises and we seek to involve 
participants from multiple other countries beyond the actual 
host nation where the exercise would be conducted.
    Senator Kaine. Thank you.
    A couple of questions about Morocco for Ms. Romanowski, if 
I could start with you. You referenced a project that is going 
to be announced between the United States and Morocco in 
connection with the King's visit. Could you elaborate on that a 
little bit?
    Ms. Romanowski. Yes. It is actually a 5-year newly revised 
strategic country development plan that we do and we try to do 
every 5 years where we actually focus on whether we need to 
shift our programming, our emphasis, and we work closely with 
the Moroccan Government. In this particular 5-year strategy 
that we will be announcing actually this afternoon, we are 
focusing on continuing to build strong civil society 
organizations so that they can participate in the political 
process.
    We are also focusing on our continued support for 
education, improving the education system, because at this 
point there are significant issues related to early dropout and 
underachievement.
    And then we are also in line with shifting a lot of our 
focus across the region is to focus on much more job 
development and job programs, and how do we actually help the 
young people in Morocco but across the region to have the 
skills, the job skills, the leadership skills to get jobs that 
are relevant to the private sector that is looking for 
employment.
    Senator Kaine. Thank you.
    Mr. Schmierer, if I could ask you to talk a little bit 
about--well, first, before I ask the question, the point that 
was made about Morocco that I find compelling is, along with 
Algeria, its capacity to be an example for the other nations, 
Tunisia and Libya. It is so much better to have an example that 
is near to home rather than to have to point out an example far 
away. Morocco's history of respect for religious minorities, 
some of the advances recently in opportunities for women in the 
commercial and civic spheres are very strong examples that I 
think we should be highlighting.
    So a couple of questions, if you would. I know a continuing 
challenge, and I referenced it in my opening statement, has 
been the status of the western Sahara, and that is a challenge 
that is in the U.N. province now. It is a source of tension 
between Morocco and Algeria, and I am a little concerned about 
it especially because if porous borders are one of our 
challenges in the region, disputed territory suggests to me a 
potential vulnerability. I am sure it is an actual 
vulnerability as well.
    It seems that the western Sahara situation has been in kind 
of a diplomatic stasis for some time. But could you talk about 
its current status and what U.S. policy is with respect to a 
resolution?
    Mr. Schmierer. I would be happy to, and you are certainly 
correct to point out that this is a long-standing source of 
tension, and unfortunately tension among countries in the 
regional as well, in addition to the issue itself.
    Our position is that we fully support the U.N. Secretary 
General's efforts, and we are very fortunate to have a very 
able diplomat, Ambassador Chris Ross, as his personal envoy to 
try to continue to resolve this issue, and he has been out 
there numerous times recently to talk to the various parties.
    There have been some viable proposals made, and we 
certainly want to give those the opportunity to be looked at, 
and ultimately we think there should be, and could be, a 
peaceful, sustainable, and mutually agreed solution. But the 
parties will be the ones that will ultimately have to make that 
resolution.
    So we continue to put our support behind the U.N. Secretary 
General and Ambassador Chris Ross to try to continue to move 
that issue forward.
    Senator Kaine. Do you have any sense, Mr. Schmierer, of the 
timing or what you would foresee? I know it has been an open-
ended issue for now, year after year.
    Mr. Schmierer. It is 35 years, I think, is the time.
    Senator Kaine. Yes.
    Mr. Schmierer. So, yes, it is a long-standing issue. It 
would be hard to speculate, but one might hope that the current 
dynamics in the region, where there is change underway, and I 
think there is new thinking underway, that I think with 
Ambassador Ross' engagement and his diplomatic skills and the 
support of the international community, one could certainly 
hope that we would begin to see some new ways forward that 
might actually bring us to a resolution.
    Senator Kaine. What is your assessment of the reform 
efforts undertaken by King Mohammed since the Arab Awakening 
began?
    Mr. Schmierer. Well, of course, even when he first came to 
office in 1939, he began to make some reforms which I think 
were very well received, and certainly we were pleased and 
supportive of those reforms. That effort has continued, as I 
pointed out. Under their new constitution they have now had 
elections, they have an Islamist-led government, and we have 
seen a number of changes in the government leadership. So it is 
a dynamic governance situation, which I think has been very 
well received by the people.
    At the same time, I also think that they are seeking more 
and more to bring in the kinds of values and principles that we 
have long since promoted. I think you referenced the fact that 
women and youth and various minorities now really do enjoy an 
improved situation and more opportunities.
    So we just want to continue it, and I think the King's 
visit this week will give us that opportunity to continue to 
work with the Moroccans as they themselves seek to move further 
down the path that has been kind of opened up through the Arab 
Awakening.
    Senator Kaine. And the accession to civilian political 
power of an Islamist-led government, it has not disturbed the 
relationship with the United States that has generally gone in 
that continuous way with the past history of good relations we 
have had?
    Mr. Schmierer. Well, exactly. I think in the Moroccan 
context, one sees it a little bit differently than perhaps in 
some other contexts. But, no, absolutely. The fact that this 
resulted from their constitutional changes from a clearly 
understood to be free and fair election and that the government 
and the King have continued to work together, to us that has 
been a positive example of progressive change.
    Senator Kaine. And then, Ms. Dory, one last question about 
Morocco. If you could just talk a little bit specifically about 
how the Moroccan military has been as a partner in dealing with 
the AQIM threat.
    Ms. Dory. The Moroccan military, as I mentioned, we have 
had a very strong relationship over many years, and 
incorporated in the types of training activities that we do in 
terms of the exercises that we do, the focus on al-Qaeda and 
affiliates is central in the types of conversations and 
activities that are underway with the Moroccan military.
    We have been very encouraged--even though Morocco is not a 
neighbor of Mali--with the events in Mali in the past 2 years, 
their concerns and considerations there and the work that they 
are doing to support the efforts. The AFISMA force that is in 
place, the multinational peace force, Moroccans have provided a 
field hospital to that effort, and they are in the process of 
providing training that will be religious training for imams 
who are based in Mali to help with the dimensions of countering 
violent extremism in Mali. So even well beyond their borders, 
Morocco has had a long history of participation in peacekeeping 
operations, and they continue to be quite engaged in the 
region.
    The other thing I would flag is Moroccan leadership in 
hosting a border security ministerial in the last couple of 
weeks that was attended by its neighbors in North Africa, and 
again the demonstration of leadership well beyond its borders.
    Senator Kaine. Thank you.
    Let me ask a question, switching to Algeria for a minute, 
sort of make an observation. I may be right; I may be wrong; 
and tell me I am wrong, if I am wrong.
    Algeria from outside review seems to have some challenges. 
So, for example, in youth unemployment and disaffected youth. 
And yet, it does also seem from outside review that they have 
not been beset with significant civil unrest. Is that correct? 
And if so, how do you interpret that? The absence of civil 
unrest is a notable thing in the region, and I would kind of 
like to get your opinions about that.
    Mr. Schmierer. I would be happy to offer at least our 
reviews. Algeria, of course, is a country with considerable 
resources, and therefore a certain amount of wealth. Of course, 
it is the largest country in Africa, but it is a country whose 
resources are well matched with its population. So I think the 
government has tried to provide opportunities there for their 
large youth cohort.
    We believe that more can be done in terms of free market 
development and those kinds of things. But I think to this 
point, the government has been fairly successful in directing 
its resources in ways that have supported the people, and as a 
result they have maintained a certain level of stability.
    Senator Kaine. On the counterterrorism side, the Algerian 
military has had its own experience, sadly, but that has 
enabled them to be very battle-hardened and a pretty 
significant security partner.
    Ms. Dory, you described that relationship a bit in your 
opening statement. But if you would talk a little bit about the 
capacities of the Algerian military, kind of along the lines of 
could they offer assistance to other nations, be they actual or 
kind of by example and by technical training, based on the 
experiences that they've had?
    Ms. Dory. Senator, as you referenced, the Algerians have 
had a searing experience internally in dealing with AQIM and 
are a very fine counterterrorism force at this point. They have 
been working to focus on securing their borders in the past 
year and a half or so, with all of the events in Mali, and I 
think that is well known.
    But what is less known, and we have encouraged them to 
speak more about it, is the support that they provide to some 
of their neighbors in the Sahel when it comes to training and 
equipment assistance. So in addition to being a strong 
counterterrorism operating force within their own borders, they 
are also sharing that expertise with other partners.
    In terms of the relationship with the United States, I 
would say we have a growing relationship with the Algerians, 
particularly in recent times where we are having additional 
dialogues as it pertains to counterterrorism. We are sharing 
information. They are very interested, for example, in 
improvised explosive devices and some of the tactics, 
techniques, and procedures that the United States has developed 
in the course of operations in Afghanistan and Iraq. This is 
something within the Algerian context where AQIM activities, 
the kind of continued evolution on their part, there is a 
growing IED threat within Algeria that is forming the basis of 
some of the collaboration that we have at this point, both in 
terms of information-sharing as well as looking at equipment 
that we would be able to share with the Algerians.
    Senator Kaine. Ms. Romanowski, maybe I am wrong on this. 
USAID does not currently have significant programs in Algeria; 
correct?
    Ms. Romanowski. Chairman, that is correct. USAID has an 
extremely limited presence. We have been working to launch a 
program that is consistent with our combating terrorism and 
extremist programs, but that program we tend to do from Morocco 
where we do have a mission and have had one for a long time.
    Senator Kaine. Is that status of only limited activity in 
Algeria likely to change in terms of USAID planning in the 
foreseeable future?
    Ms. Romanowski. I do not see anything on the horizon that 
would allow us or enable us to change that, but when we have 
opportunities, particularly with respect to regional programs, 
we will take every opportunity we can.
    Senator Kaine. Let me move to Tunisia, and this would be a 
question maybe for all of you to weigh in, if you care to, 
starting with Mr. Schmierer. Talk about the national dialogue, 
kind of the status of the national dialogue currently. Again, a 
number of things have gone well in Tunisia, but the two 
political assassinations this year obviously have led to 
significant unrest, some probably productive civil unrest. This 
is not the direction we want to go, but if you could talk about 
how that factors into the ongoing national dialogue?
    Mr. Schmierer. Well, as you noted, Tunisia is the 
birthplace of the Arab Spring and now the ongoing Arab 
Awakening. So I think everybody is looking to try to help 
Tunisia get through what is turning out to be a difficult 
challenge. The two political assassinations of earlier this 
year have led to a call for a national dialogue and a 
transitional government.
    The steps that are needed to be taken, first the parties 
need to select an independent figure to be the leader of the 
caretaker government, and right now the parties are regrouping 
to try to get to that point. Once that has been agreed to, then 
once the legislature approves that, then there will be--the 
legislature will seat a 9-member electoral monitoring board and 
then develop a new electoral law, and then set the date for new 
elections, and then adopt a new constitution. So those are the 
step-wise procedures that would happen through the national 
dialogue effort.
    Senator Kaine. One other question. Each of these countries 
have their own peculiarities, and one in Tunisia that I find 
fascinating is the powerful nature of the trade union 
federation, the UGGT. If you could just kind of describe, as 
part of the national dialogue, the role that the trade union 
federation plays, and is it likely to continue to play that 
kind of role going forward or will that likely alter as the 
national dialogue goes forward?
    Mr. Schmierer. Well, as you pointed out, it is a very 
strong 
institution in Tunisia, and it has been for some time. So 
clearly, all the parties involved will be ensuring that they 
work with, and coordinate with, the trade union Congress. It 
would be hard to predict. I would anticipate that will continue 
because it has been an institution of long standing, but there 
are dynamics at play where potentially you could see other 
centers of power emerge, because they are still kind of getting 
into that new period following the revolution. But I think one 
would anticipate a continued strong role by the trade union 
conference.
    Senator Kaine. And then currently, Ms. Dory, talk a little 
bit about the role of the AQIM affiliates and other extremist 
groups like Ansar al-Sharia in Tunisia, if you could.
    Ms. Dory. Tunisia immediately post-revolution has focused 
on the political process, as it needed to. But I think there 
has been the growing realization within Tunisia, in particular 
with Ansar 
al-Sharia, they took the step after a period of time of 
designating Ansar al-Sharia as a terrorist organization, 
recognizing that it was operating outside the boundaries of a 
political entity within their political process.
    The Tunisian military has faced recent challenges in terms 
of attacks against the military in their positioning along the 
Algerian border and are in the process of undertaking a quite 
kinetic series of engagements against Ansar al-Sharia and other 
extremist organizations in their country. So I think that is 
something that we continue to need to be vigilant vis-a-vis the 
possibility that additional fighters flow into Tunisia or 
through Tunisia given the challenges associated with the 
borders with Libya and with Mali.
    Senator Kaine. Overshadowed by the Benghazi attack was the 
fact that the Embassy in Tunis was also attacked within a few 
days thereafter, thank goodness not in such a serious way, and 
that is one of the reasons it was overshadowed. But have we 
done what we need to do, learned the lessons from that attack 
as well, and provided additional security as needed to our 
diplomatic personnel in Tunisia, Mr. Schmierer?
    Mr. Schmierer. I would say very strongly, ``Yes.'' As I am 
sure you are aware, our top priority is the security of our 
people, of our facilities, and of Americans abroad. And as you 
suggest, that was a very unfortunate incident but one which has 
caused us to redouble our assessments and our efforts in terms 
of security. I know Ambassador Wallace has been very active on 
both the physical security and on procedural measures to ensure 
that our Embassy in Tunisia is secure and has what it needs to 
ensure its security.
    Senator Kaine. With respect, one last question on Tunisia 
before a few questions about Libya. It does appear that the 
United States has a very comprehensive approach to Tunisia from 
security assistance, economic assistance, a Millennium 
Challenge Corporation Threshold Program, and potential support 
for an eventual free trade agreement.
    Are we getting good cooperation from other international 
partners in trying to devote this comprehensive approach to 
increasing stability and then eventually prosperity in Tunisia?
    Mr. Schmierer. On the political front, absolutely. We are 
in very close contact with allies and with other countries in 
the region that also share our goals of stabilizing and helping 
Tunisia move forward, and that is true across the region, of 
all these transitioning countries. And so that is one really, I 
think, great success story, is a common commitment on the part 
of us and like-minded nations, whether they are Arab nations, 
European nations or others, to support these countries, and 
particularly Tunisia, in making a successful transition.
    Senator Kaine. Moving to a few questions about Libya before 
moving on to the second panel.
    Ms. Dory, you testified a little bit about the destruction 
of chemical weapons, and I do not want that to be lost for all 
the significant challenges that remain. The destruction of 
chemical weapons stockpiles is something that is very important 
to note and to praise our efforts in that. Did you indicate a 
date on which we believe the Libyan stockpile will be 
completely eliminated?
    Ms. Dory. The current projection is by the end of the year.
    Senator Kaine. And can you describe sort of the volume of 
the chemical weapons stockpile that we have been dealing with 
in trying to do that destruction?
    Ms. Dory. I can. We have been working to destroy in the 
first instance a series of munitions that included artillery 
shells, hundreds of artillery shells, bombs and other munition 
cartridges, so a significant stockpile of munitions, and then 
there are other materials that will need to be destroyed as 
well from production of those munitions.
    Senator Kaine. If we could, let us talk about the militias. 
I mean, some have called for an international effort, an 
international peacekeeping force to try to begin an engagement 
surrounding a massive disarmament effort among the militias. Is 
that a realistic proposal? Or describe whether that is a good 
idea and what we should be doing to advance it if it is a good 
idea.
    Mr. Schmierer. That is not the approach that we are 
supporting. As I mentioned, we, and right now Italy and the 
United Kingdom, are all committed to helping stand up this 
general purpose force, and obviously our DOD colleagues will be 
the essential implementers on that, as the means of helping 
Libya establish the internal security which is currently not 
there. So we think that is an appropriate and ultimately will 
be the successful way to address the internal security issues 
in Libya.
    Senator Kaine. And, Mr. Schmierer, you indicated that that 
training of that general purpose force would be at about--to 
the level of about 5,000 people that would be trained?
    Mr. Schmierer. Yes. Our commitment coming out of the G8 was 
5,000 to 8,000, and since that time the Italians and the 
British have also indicated, I believe, a commitment of 2,000 
each. So those numbers will then be somewhere between 5,000 and 
10,000. The Libyan Government is the sponsor and the funder of 
this effort, but obviously with our cooperation we would 
certainly be coming to the Congress for their input and their 
support for that effort.
    Senator Kaine. And is that general purpose force, the size 
of it, is that to be sort of a core and it would ultimately be 
a much larger force, or how would that advance Libya toward its 
ultimate goal of having a significant and appropriately sized 
security apparatus?
    Mr. Schmierer. I might have to defer to my DOD colleagues 
on force levels. It would be between 5,000 and 10,000. We would 
very well train the general purpose force for a country of 6 
million. So I think ultimately that would really just be a good 
first start, as then they would institutionalize and go 
forward, a ``train the trainers'' kind of an effort.
    Senator Kaine. What is the current status of functioning 
local governments in Libya, local elections, local governments, 
and is that a positive to the national government or is it seen 
at all as sort of a threat or competition?
    Mr. Schmierer. Well, it is kind of a combination because at 
the local level you do have functioning communities. So you 
have local governments which are delivering services and which 
are operating in support of the people. Unfortunately, at the 
same time you also have security situations, militias and other 
instability. So that is not preventing local governments from 
doing the basic work that they would be doing, but ultimately 
that is not an effective way for them to continue functioning.
    So, yes, I think one can say that basically those 
governments are functioning, but it is very important to get 
the security part fixed so that that can continue in a positive 
way.
    Senator Kaine. Obviously, our involvement with NATO in 
Libya, we have continued to have international partners, for 
example, in training the general purpose force that you 
indicate. Is the United States satisfied with the degree of 
international participation across the range of the activities 
that we are currently engaged in in Libya? Are there enough 
partners at the table to help us make a difference?
    Mr. Schmierer. I can certainly indicate the planning for 
the general purpose force, absolutely. And then also as we have 
looked at other elements of their capacity-building on the 
governance side, we have very strong commitments from a number 
of other allies to try to help Libyans stand up that civilian 
side, so to speak, of what needs to be developed in the 
country. So, yes, I think the international community has done 
a very good job both of standing up and of coordinating their 
support.
    Senator Kaine. Could you talk a little bit about the 
governance initiatives and what is currently under way?
    Mr. Schmierer. Well, there are a number of planning 
processes where the idea would be to try to help--what they are 
lacking now is the ability to actually execute the functions of 
government. So they have resources, but they really do not even 
have good budgetary execution capability. So having the 
resources has not allowed them to actually address the kinds of 
issues that they face.
    So we have not launched anything at this point, but we are 
working with the Libyans and with allies and friends to try to 
conceptualize and then develop and launch an effort to identify 
and help the Libyans stand up the capacities that they need to 
use their resources effectively to address the governance 
challenges that they face.
    Senator Kaine. I want to say that is sufficient questions 
for Panel 1. Senator Risch came in and I offered him the chance 
to make opening statements, and I said please ask questions, 
and he said to me that normally we are hemmed in by 5- or 6-
minute question rounds, and he said he was going to cede me 
time to ask as many as I wanted. So it has been good to have 
the chance to dialogue with you for about an hour. I appreciate 
the testimony and the efforts to address these concerns of the 
first panel, and thank you very much for participating.
    I would like to ask the second panel now to come on up.
    Thank you.

    [Pause.]

    Senator Kaine. Well, I would like to welcome the second 
panel before us. I will do brief introductions of the panel 
members and then ask them to testify in the order in which I 
introduce them.
    Dr. William Lawrence is currently a visiting professor of 
political science and international affairs at George 
Washington, at the Elliott School of International Affairs 
there. From 2011 to 2013, he was director of the North Africa 
Project at the International Crisis Group, and prior to that 
served in a number of positions in the U.S. State Department, 
including service at the U.S. Embassy in Tripoli. Dr. Lawrence 
spent 12 years in North Africa, and he served with the late 
Ambassador Chris Stevens in the Peace Corps in Morocco.
    Frederic Wehrey is a senior associate in the Middle East 
Program at the Carnegie Endowment for International Peace. His 
research has focused on political reform and security issues in 
the Arab Gulf States and U.S. policy in the Middle East more 
broadly. He flew back from Libya just yesterday.
    Thank you for accepting our invite when you are so jet-
lagged, where you have been studying and working on the various 
Libya militias. Obviously, we look forward to hearing about 
your most recent experience.
    Thomas Joscelyn, our third witness, is a senior fellow at 
the Foundation for Defense of Democracies, and also senior 
editor of the Long War Journal, a publication dealing with 
counterterrorism and related security issues. Much of his 
research focuses on how al-Qaida and its affiliates operate 
around the globe. Mr. Joscelyn was the senior counterterrorism 
advisor to Mayor Giuliani during his 2008 Presidential campaign 
and has testified often before Congress.
    If I could begin with Dr. Lawrence and have each of you do 
opening statements, we will get into questions. We are 
expecting votes to be called sometime between 3:45 and 4:00, 
and we will engage in vigorous questioning until we have to run 
over to the floor.
    But, Dr. Lawrence, welcome, and please begin.

STATEMENT OF WILLIAM LAWRENCE, VISITING PROFESSOR OF POLITICAL 
     SCIENCE AND INTERNATIONAL AFFAIRS, GEORGE WASHINGTON 
     UNIVERSITY'S ELLIOTT SCHOOL OF INTERNATIONAL AFFAIRS, 
                         WASHINGTON, DC

    Dr. Lawrence. Thank you, Chairman Kaine, and thank you to 
all those who helped organize the panel. As you mentioned, I 
just spent 2 years in the region witnessing all this from up 
close, and although I will only be able to cover so much in 5 
minutes, I am happy to answer any questions you have about the 
individual countries, and any questions you asked the first 
panel insofar as it does not get into the nitty-gritty of U.S. 
programs. I would be happy to address any of those questions.
    In the North African region and beyond, we are still living 
in what historians call a ``world historical moment'' where 
change happens fast in profound but cacophonous ways. History 
accelerates, and we often miss much of what is going on and get 
distracted by things over here and miss what is going on over 
there.
    Apt comparisons have been made to 1989 in Eastern Europe 
and to 1945, but I think the best comparison is to 1848, in 
which the authoritarians play themselves, the liberals play 
themselves, the street plays itself, and the Marxist spoilers 
are replaced by Islamist spoilers. And even though only one 
country had a regime change in 1848, about 20 countries in 
Europe were profoundly affected, and this began a process of 
the decline of monarchies and the growth of democracies in 
Europe.
    Of the 18 countries that rose up in the winter of 2011, the 
North African nations played a much larger role than the 
nations to the east. They incubated this change over quite a 
long period. They provided much of the political culture, the 
slogans, the rap lyrics, the hybridic ideologies, and North 
Africa continues to be the place where most of the change is 
taking place in the Arab Spring's aftermath.
    In a lecture I gave 2 years ago in Boston entitled ``Days 
of Rage, Dreams of Trespass,'' you can hear a lot of this 
analysis that I am talking about. But suffice it to say that 
today the roots of rage and the dreams of trespass have not 
subsided in this region, and we cannot rely on the media. The 
media is too underfunded and underresourced, and it is not 
everywhere.
    Just take the example of Bloody Friday last Friday in 
Tripoli where we had a massacre of civilians and a civilian 
uprising against militias and very poor media coverage, and 
this could be a major turning point in the politics of Libya 
and the politics of Tripoli. This civilian uprising was much 
like the civilian uprising after Chris Stevens' death in 
Benghazi, and yet it gets lost in this environment of big 
change.
    That also raises an important quick point I will make about 
Libya, which is that Libya is not one big mess. Libya is a 
bunch of little messes that are not very related. So the string 
of political assassinations in Benghazi is very different from 
the political game involving militias and their GNC allies in 
Tripoli, which is different from what is going on in the 
borders, which is different from the fighting over smuggling 
and trafficking routes in the south, and different from ethnic 
conflicts in other communities, and we tend to conflate this 
all because there is no military and no police, and we do a 
great disservice to ourselves to not understand all the 
different dynamics in these different Libyan localities.
    Over the last 3 years and across the North African region, 
we are talking about major changes every month with national, 
regional, and global causes and effects, and we do ourselves a 
disservice by focusing on nation/state-level changes and 
ignoring the subnational and the transnational.
    There are also dozens of ways the information coming from 
the region gets distorted as it flows through various filters 
coming to Washington. One of the big ones I call the Egypt 
Effect. When Egypt is going well, the region is going well; and 
when Egypt is doing badly, everyone else is suffering from 
whatever malady Egypt has, whereas Tunisia in particular is 
very much on its own trajectory and should not be viewed 
through that Egyptian lens.
    That said, there are regional dimensions to all this, and 
what we often miss is what is regional. For example, I would 
venture to say that Egypt is not the big problem in North 
Africa right now. Syria is the big problem. We have thousands 
of fighters streaming to Syria. We have hundreds of deaths 
already of North Africans in Syria, and we have blowback 
effects already starting, not unlike the young fighters coming 
back from Afghanistan that had a direct impact on the 1990s 
happening in Algeria.
    So we do ourselves a great disservice by not understanding 
that by putting the Syria conflict on hold, it does not 
constrain itself. It rocks the North African region in very 
profound ways. Take, for example, the flows of jihadists and 
the flows of weapons, right? We were mostly concerned in 2011 
about flows to the west and to the south. Now that is not the 
concern. It is the flows back into Libya because Libyan 
militias over-sold into the black markets, and the increasing 
flows north and east of Libya toward the conflicts that you 
mentioned.
    It is also not correct to see the change that happened in 
North Africa as nonviolent. And it is also incorrect to see 
stability as needing to be our number one goal in the region. 
Stability for stability's sake, as we have learned, has 
destabilizing effects in the region. Democratic transitions are 
unstable. Three hundred Tunisians died in their revolution. 
Twenty-seven thousand Libyans died in their revolution, and the 
vast majority of the deaths were pro-revolution Libyans 
fighting and now continuing that fight in Syria, as I mentioned 
earlier, because they want change in their countries.
    The other martyrs often get overlooked. Bouazizi was the 
first of 400 self-immolations across the region, the majority 
in Algeria, and the majority of these self-immolators worked in 
the informal sector, and the international community and the 
national communities have continued the same economic policies 
toward the informal sectors, which do not work. So we continue 
to exclude from the formal economies, because not enough jobs 
are being created, and from the informal economies, and have 
this continuing cycle. Even this month, we have had several new 
self-immolations because of the despair.
    Fifty percent of the people in all of these countries work 
in the informal sector. Thirty percent of the economies, on 
average, are in the informal sector. And we are not doing a 
good job in terms of job creation and making the informal 
sector into an engine of growth rather than a problem that 
needs to be eradicated.
    North African young people made these revolutions, and they 
continue to be successful in keeping change happening. But we 
also should not see them as those kids over there. In many 
ways, it was our investments in vaccinations, our investments 
in mother-child health care, our investments in education, our 
investments in any number of areas that created the youth bulge 
in the first place, which is not created by high fertility. It 
is created by mortality dropping twice as quickly as fertility 
is dropping in the region, and many of these kids, many of the 
revolutionaries studied in American universities. They were our 
classmates, they were our students, and as things continue to 
unfold, they are wondering why we are not there more.
    So in many ways, the chickens of successful developmental 
policy, both domestic and international, have come home to 
roost, and we have not sufficiently adjusted our assistance 
policies to take into account these new realities, where big 
investments in health and education and women and youth on the 
old models create as many problems, as I mentioned earlier, as 
they solve, where the real action right now is the 10 million 
jobs that need to be created for this youth bulge that largesse 
and good will created in the first place.
    I have interviewed over 5,000 young people in the region 
over many years, and if I have learned anything from these 
interviews, these are very pragmatic young people who have 
rejected the old ideologies, nationalist ideologies, socialist 
ideologies, Amazerist ideologies, feminist ideologies, Islamist 
ideologies, and the vast majority are seeking to build 
reconciled political spaces where everyone has a seat at the 
metaphorical dinner table.
    I remember when youth activists from Abdul Asan, a banned 
Islamic group in Morocco, were crushed when their group left 
the February 20th movement because they wanted to build a 
Morocco where everyone had a seat at that table, where everyone 
worked together.
    So we have restive populations with higher expectations 
because of the Arab Spring, and states, to quote Yahia Zoubir 
in his new book on security in the region, which are managers 
of violence. To whatever degree these states are to blame for 
that violence or are simply victims of that violence varies 
from state to state. But there is no question that all four 
states need help quelling the increased violence, some of it in 
the name of democratization and rights, some in the name of 
jobs and keeping price subsidies, and some of the more 
nefarious forces that we have been talking about.
    But let us not get on the wrong side of democratic change, 
as we did in some of the cases in the Arab Spring, and always 
ask in our assistance and in our partnerships how does this 
policy affect the young people that are trying to emulate our 
system with their efforts to make political change? As we 
engage with the governments, we do not often think that way.
    In security, and I was one of the people who worked on 
TSCTP when I was at the State Department, the creation of it, 
it was a good idea. It has not been fully implemented in as 
holistic a manner as it could have. We need to do a lot more in 
human rights, as the head of AFRICOM said and his regret in 
terms of what was done in Mali. We also need to do a lot more 
on the economic side and the political reform side.
    Senator Kaine. If I could ask you to start to summarize, 
Dr. Lawrence.
    Dr. Lawrence. I am right at the end.
    So we need to increase levels of cooperation with all of 
these countries.
    I am very concerned about our very light footprint in Libya 
and the tiny Embassy, and even our light footprint in Tunisia 
and Algeria where diplomats, because of what happened in 
Benghazi, are very much hunkered down. They do get out with 
their escorts, but they are very few in number. We do not have 
enough out there, and we need to get more out to the embassies, 
in my opinion.
    I am optimistic for the long term in the Maghreb even 
though my prediction for the medium term is more mixed. The 
Maghreb needs our help, our heart and soft power, and our smart 
power.
    Thank you.
    Senator Kaine. Thank you, Dr. Lawrence.
    Dr. Wehrey.

 STATEMENT OF FREDERIC WEHREY, SENIOR ASSOCIATE IN THE MIDDLE 
   EAST PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE, 
                         WASHINGTON, DC

    Dr. Wehrey. Good afternoon, Chairman Kaine. Thank you for 
the opportunity to speak about Libya's worsening security 
crisis and the next steps for United States policy in building 
Libya's Army.
    I join you today having flown back last night from a 2-week 
trip to Tripoli and Benghazi, where I met with a wide range of 
Libyans, including militia leaders, military officers, 
parliamentarians, tribal chiefs, and Islamists about options to 
improve security.
    These voices were nearly unanimous in identifying the 
unifying thread of much of Libya's instability in many of these 
disparate conflicts to the power and autonomy of the country's 
roughly 300 militias, many of which the Libyan Government has 
tried to bring under its control by putting them on its 
payroll. Now, by all accounts, this has been a disastrous 
bargain. It has actually given predatory militias even greater 
freedom and even greater latitude.
    This past weekend, I witnessed a remarkable turn of events 
in Tripoli that suggests public patience with the militias has 
reached a tipping point. On Friday, peaceful protesters marched 
on a compound belonging to a powerful militia from Misrata, 
demanding that they leave. Forty-six of these protesters died 
at the hands of militiamen wielding heavy-caliber weapons. The 
outrage was immediate. Civil strikes shut down the city, and 
protests erupted across Libya.
    The message in all of this activism was uniform and clear: 
We want the militias dismantled, and we want the legitimate 
army and police to take their place.
    Now, echoing these popular demands, the United States, as 
we have heard, along with Italy and Britain, is considering a 
plan to train and equip a new Libyan national army, denoted in 
military terms as a general purpose force. In theory, the 
concept is sound: bolster the army to protect the elected 
officials and institutions and compel the militias to disarm.
    But the plan also carries several risks. Unanswered 
questions about the force's mission, its oversight, and its 
inclusiveness could further polarize an already-fractured 
country. To prevent this from happening, the following five 
issues and questions regarding the general purpose force need 
to be resolved.
    First, its exact role and mission needs to be clarified, 
and based on my last visit, it is not clear that the Libyans 
have the capacity to determine this at this point. As its name 
implies, it is meant to be a conventional infantry force that 
is focused on guarding installations and officials, but what 
Libya really needs is a more specialized gendarme to tackle 
border security, illicit trafficking in narcotics and weapons, 
and low-level insurgency.
    Second, effective civilian oversight of this force must be 
in place. Libya does not need to follow an all-too-common model 
in the Arab world where armies' self-entitlement and insularity 
have been fatal for democracy. The Libyan revolution was not 
launched to replace one colonel with another.
    Third, the general purpose force must act and be perceived 
as nonpartisan and professional. To prevent it from becoming 
the private militia of a particular tribe or region, or the 
Pretorian Guard for a political faction, its recruits must draw 
from a broad spectrum of Libyan society and must be integrated 
into mixed units.
    Fourth, the United States and Libyan authorities must 
properly vet recruits for aptitude, human rights' violations, 
and criminal history. Recent failures bear this out. An effort 
last year to train Libyan police officers in Jordan collapsed 
when poorly screened recruits mutinied against what they 
perceived as poor conditions.
    Fifth and perhaps most important, the training effort must 
be accompanied by a parallel program to demobilize and 
reintegrate the young men in the militias back into society. 
These young men must be given economic and social incentives to 
leave and enter the workforce, pursue schooling, or join the 
regular police and army. Doing so would deprive militia bosses 
and cynical politicians of the manpower to obstruct Libya's 
democratic transition.
    Mr. Chairman, in light of the stunning display of public 
activism and government will that I witnessed this weekend, the 
United States and Libya's friends have a window of opportunity 
to help improve Libya's security. But the United States needs 
to proceed cautiously and deliberately. True, establishing an 
army is an important first step in restoring security. But the 
militia problem cannot be solved solely by the state's 
monopolization of force.
    The militias draw from a wellspring of deep political and 
economic grievances by Libya's long-neglected towns and 
regions, and better training and equipment alone will not 
confer legitimacy on the new army or compel militias to 
surrender their arms. That legitimacy will only be obtained 
through broad political reconciliation such as the national 
dialogue currently being sponsored by the Prime Minister, a 
constitution, and a representative government that is able to 
deliver services across the country.
    Thank you for the opportunity to speak here today.
    [The prepared statement of Dr. Wehrey follows:]

               Prepared Statement of Dr. Frederic Wehrey

    Chairman Kaine, Ranking Member Risch, committee members, I am 
grateful for this opportunity to speak with you about Libya's worsening 
security crisis and the next steps for U.S. policy in building Libya's 
Army.
    I join you today having flown back last night from a 2-week 
research trip to Tripoli, western mountains and the troubled eastern 
city of Benghazi. It was my sixth visit to the country and my fourth 
since the Revolution.
    The focus of my recent trip was to assess the prospects for 
demobilizing and disarming the country's powerful militias while 
building up the regular army and police and reforming its defense 
institutions. I held frank and detailed conversations with a variety of 
official and nonofficial actors: the Special Forces commander in charge 
of securing Benghazi, militant federalists in the east, the heads of 
Islamist militias, civil society activists, and parliamentarians.
                         diagnosing the problem
    Much of Libya's worsening crisis stems from the power and autonomy 
of the country's roughly 300 militias. Lacking its own police and army, 
the transitional government in late 2011 and 2012, cut a deal with 
these militias, putting them on the payroll of the Ministries of 
Defense and Interior. By all accounts this has been a Faustian bargain 
that has given the militias freedom to pursue agendas that are 
political, ideological, in some cases, purely criminal.
    The militia menace has been especially stark in Tripoli, where 
armed groups from outside the city--Misrata and Zintan--have claimed 
what they see as the spoils of the revolution, occupying public and 
governmental institutions, raiding the army's training camps and 
facilities, and pressuring the Parliament to pass legislation. In the 
east, militias allied with the country's federalists have shut down oil 
production while in the south they guard the porous frontier.
    Over the weekend, I witnessed a remarkable turn of events in 
Tripoli that suggest public patience with the militias has reached a 
tipping point. On Friday protestors marched peacefully on a compound in 
Tripoli belonging to a powerful, predatory Misratan militia, demanding 
that they leave. Forty-six people, including the elderly, women, and 
several adolescents, died in a hail of gunfire by militiamen wielding 
heavy caliber weapons. The message was uniform and clear: ``We want the 
militias out of Tripoli, and the national army and police to take their 
place.''
    When I left Tripoli, the Libyan national police and army--long 
thought to be nonexistent and missing in action--were out on the 
streets of Tripoli in full force, 
to thunderous applause from the city's residents. The question before 
us now is whether this remarkable episode presages a real dismantlement 
of militia power, or whether it is simply a tactical redeployment.
         u.s. security assistance: opportunities and challenges
    In response to Libyan's deepening crisis and Prime Minister 
Zeidan's request for greater outside assistance at this year's G8, the 
U.S., Italy, Britain, and Turkey are planning to train and equip a new 
Libyan national army, denoted in military terms as a ``general purpose 
force.'' In theory, the concept seems sound: bolster a professional 
Libyan Army to protect elected officials and institutions, allow the 
government to function free from militia pressure, and compel the 
militias to disarm.
    But the plan also carries the risks. Unanswered questions about the 
force's oversight, mission, inclusiveness of different regions, and 
composition could potentially polarize and destabilize Libya's already 
tenuous landscape. Many Islamists in the east believe the planned army 
is hardly a national one but rather a palace guard for the Prime 
Minister. Already there are signs that militias are trying to bloody 
the nose of the new army before it even gets off the ground.
    To avoid potential pitfalls, the following issues and questions 
need to be resolved:
    First, the exact role of the general purpose force needs to be 
determined. As its name implies, it is meant to be a regular infantry, 
focused initially on securing government installations and protecting 
officials. But what Libya really needs is a more specialized, 
gendarmerie-type service to tackle border security, illicit trafficking 
in narcotics and weapons, and low-level insurgency.
    It does not need another bloated, conventional military force that 
sits in its barracks--a far too common occurrence in the Arab world, 
where armies' self-entitlement and insularity have proved unhealthy for 
democracy. The Libyan revolution was not launched to replace one 
colonel for another.
    Second, the ``general purpose'' force must be, and must be 
perceived as, nonpartisan and professional. To prevent it from becoming 
a private militia of a particular tribe, region, or political clique, 
recruits must be integrated into mixed units that draw from a broad 
swath of Libyan society. The case of a separate and underreported U.S. 
effort to train a small Libyan counterterrorism unit inside Libya 
earlier this year is instructive. The unit, set up by U.S. special 
operations forces, was hardly representative of Libya's regional 
makeup: recruitment appeared to be drawn overwhelmingly from westerners 
to the exclusion of the long-neglected east.
    And at least some of the new enlisted ranks and junior officer 
corps must come from the militias. Many senior officers in the Libyan 
Army detest that idea, viewing the militiamen as ill-disciplined rabble 
or excessively politicized. In many cases, though, these young men 
bring the real-world battlefield experience and small unit leadership 
that is so desperately needed in the Libyan Army, whose junior and mid-
level officer ranks Qaddafi had hollowed out.
    Teaching recruits to function as cohesive fighting units--rather 
than focusing solely on imparting individual soldiering skills--is also 
essential. The training mission cannot just produce soldiers who are 
better marksmen but who return to Libya and melt into the militias, or 
who moonlight as militiamen in addition to their day job in the army. 
To prevent that worst-case scenario, proper vetting for motivation, 
aptitude, past human rights violations, and criminal history is also 
vital. Recent failures bear this out: an effort last year to train 
Libyan police officers in Jordan collapsed when poorly screened 
recruits mutinied against what they perceived as unduly Spartan living 
conditions.
    Third, and perhaps most important, the training program must be 
accompanied by a reinvigorated demobilization, disarmament, and 
reintegration program for those in the militias. These young men must 
be given economic and social incentives to leave and either enter the 
work force, pursue schooling, or join the regular police and army. Many 
of the revolutionary fighters I have spoken with over the past 2 years 
do not want to remain in the militias. But few real alternatives exist.
    Mr. Chairman, to conclude: given the stunning display of popular 
and government willpower I witnessed this weekend, the U.S. and Libya's 
friends face an important window of opportunity to help improve Libya's 
security situation. But the U.S. needs to proceed cautiously and 
deliberately. Better training and equipment alone will not 
automatically confer legitimacy on the new army, compel militias to 
surrender their arms, or entice Libyans to join up.
    That legitimacy will only be obtained through broad political 
reconciliation, a constitution, and a representative government that is 
able to deliver services across the country.
    In this respect, U.S. security policy must take a holistic view. It 
must go beyond building an army to include sustained assistance to the 
Prime Minister's ongoing initiative of National Dialogue that can 
establish agreed upon ``rules of the game'' and address and mitigate 
the deep seated roots of the political disenchantment that fuels the 
militias' persistence. The U.S. must also lend advice and expertise to 
the ongoing constitutional process that will ensure proper civilian 
control of the military and delineate authorities between federal and 
municipal government.

    Senator Kaine. Thank you, Dr. Wehrey.
    Mr. Joscelyn.

  STATEMENT OF THOMAS JOSCELYN, SENIOR FELLOW, FOUNDATION FOR 
             DEFENSE OF DEMOCRACIES, WASHINGTON, DC

    Mr. Joscelyn. Chairman Kaine, thank you very much for 
having me here to talk about the threat environment in North 
Africa. Just by way of quick background, I come from this a 
little bit different perspective as I am basically a nerd who 
studies al-Qaeda very carefully and granularly. So I am going 
to talk a little bit about--in the first panel we heard about 
what we are doing in North Africa. I want to talk a little bit 
about what our enemies are doing.
    Senator Kaine. Good, good.
    Mr. Joscelyn. And I am going to tailor my comments. I am 
going to scratch what I was going to talk about and basically 
just talk about some of the issues that you raised in the first 
panel.
    The first one is, you raised the issue of what we are doing 
regionally as opposed to the bilateral agreements with 
individual countries. I think that is exactly the right way to 
think about it. Our enemies are organized regionally. In fact, 
Al Qaeda in the Islamic Maghreb is the regional emirate of a 
global terrorist network. That is how it is set up. It is 
basically set up to set up an Islamic state.
    This is seen throughout much of its history as a pipedream. 
They have had very little success until, really, its takeover 
of two-thirds of Mali. However, we have seen AQIM has really 
accelerated its operations in a variety of ways. Dr. Lawrence 
talked about the network effects to Syria and elsewhere 
throughout the Middle East, and that is exactly right. 
Basically, this is not just a security problem for North Africa 
but it affects things throughout the region and even globally.
    In October, in fact, the State Department and then the U.N. 
designated a top Egyptian terrorist named Muhammed Jamal al-
Khashef, who was reporting directly to Ayman al-Zawahiri. He 
was directly in communication with him. Some of his trainees 
actually took part in the Benghazi terrorist attack last year.
    Jamal is a good example of how this network effect works, 
because he is working with both Al Qaeda in the Islamic 
Maghreb, Al Qaeda in the Arabian Peninsula. He established his 
own training camps in the Sinai, eastern Libya, and was even 
dispatching fighters to Mali. So that is one of many examples I 
can give you about how this sort of works as a network 
regionally.
    The second thing I want to talk about, obviously al-Qaeda 
is just part of the picture. There is a broad spectrum of 
issues here which the other witnesses can better speak to than 
I can. However, one of the things I would like to talk about is 
that we continually underestimate, I think, what al-Qaeda's 
clandestine plans are for various regions. We have seen this in 
Iraq, we saw this in Yemen, and we have seen this in Syria, 
where al-Qaeda's two affiliates have taken over a large portion 
of territory.
    AQIM now, having taken over Mali, they have been kicked out 
by the French, showed that it had the capacity to do more than 
just smuggling and contraband and kidnappings for ransom, that 
sort of thing.
    To that effect, in early October a top alleged al-Qaeda 
operative named Abu al-Salibi was captured by U.S. forces in 
Tripoli. What's interesting is that most of the press coverage 
focused on his historical acts on behalf of al-Qaeda, including 
his involvement in the 1998 Embassy bombings, which I think is 
well established in the court record.
    What I was more interested in is what a report prepared by 
the Library of Congress in conjunction with an arm of the 
Defense Department concluded about Abu al-Salibi's role, all 
the way back in August 2012. They concluded, the authors of 
that report, that, in fact, he was the clandestine builder of 
al-Qaeda's network in Libya in the wake of the revolution, and 
that he had a series of steps that he was following under 
guidance from al-Qaeda's senior leadership to build up al-
Qaeda's presence in Libya, including working with various 
militias and sort of ingraining al-Qaeda's ideology locally 
within Libya.
    And that brings me to the third point. There is oftentimes 
a distinction that has been made, I think a false one, that al-
Qaeda is sort of this global jihadist threat and it is not 
really connected to these local endeavors, it is not really a 
local jihadist organization as well. That is fundamentally 
wrong. In fact, al-Qaeda, throughout its entire existence, has 
spent most of its resources, overwhelmingly so, on local 
endeavors, and what we are seeing now in Tunisia or Libya and 
elsewhere is really how it is actually moving forward with 
those designs.
    And you raised the issue of Ansar al-Sharia of Tunisia and 
its attack, or you also mentioned the two assassinations 
earlier this year, and also the attack on our U.S. Embassy. 
Well, the Tunisia Government has blamed Ansar al-Sharia of 
Tunisia for all of that. They say that Ansar al-Sharia of 
Tunisia was actually responsible for the political 
assassinations, and the State Department has recognized that 
they were responsible for the attack on our Embassy. They 
actually are strong ties between that branch of Ansar 
al-Sharia and also the Ansar al-Sharia in Libya.
    The reason why I connect the dots on this a little bit is 
that Ansar al-Sharia in Tunisia--you can see it in my written 
testimony, and I can go on with a lot more evidence--I think is 
firmly part of the al-Qaeda network inside North Africa, as is 
Ansar 
al-Sharia in Libya, and there is a lot of data on that that I 
have been compiling. These are groups I follow every day 
online. These are groups that I have been tracking very 
closely.
    Why is that important? Well, it shows al-Qaeda's designs 
and the al-Qaeda network's designs do have local interests, and 
this raises the whole point that you were getting at in terms 
of our partnerships with these various countries. Part of the 
thing that we have to emphasize here is that our interests are 
very much the same as Tunisia's in combating these terrorists 
in the al-Qaeda network, as in Libya and elsewhere, where these 
local interests that al-Qaeda has, they also can manifest 
themselves against us. There is also a threat to us from them, 
as we saw with the attack on the U.S. Embassy in Tunis just 3 
days after the attack in Benghazi.
    And I will just leave it there. Thanks.
    [The prepared statement of Mr. Joscelyn follows:]

                 Prepared Statement of Thomas Joscelyn

    Chairman Kaine, Ranking Member Risch, and members of the committee, 
thank you for inviting me here today to discuss the security situation 
in North Africa. For more than a decade I have been closely tracking 
al-Qaeda and associated movements. So, my testimony today will largely 
focus on the al-Qaeda network in North and West Africa and how this 
network has evolved over time.
    The Arab uprisings that began in late 2010 and early 2011 created 
new opportunities for millions of oppressed people. Unfortunately, the 
overthrow of several dictators also generated new space for al-Qaeda 
and like-minded organizations to operate. How the political process 
will play out in any of these nations in the coming decades is 
extremely difficult, if not impossible, for any prognosticator to say. 
But we do know this: The Arab revolutions not been the death knell for 
al-Qaeda as some analysts claimed it would be.
    Instead, al-Qaeda and other ideologically allied organizations have 
taken advantage of the security vacuums caused by the uprisings. In 
Mali, for instance, an al-Qaeda branch that was once written off as 
nothing more than a ``nuisance'' to the residents of the countries in 
which it operated managed to take over a large swath of territory, 
thereby forcing the French to intervene.\1\ Al Qaeda in the Islamic 
Maghreb (AQIM) and its allies imposed their harsh sharia law on the 
residents of Mali at gunpoint, destroying local Muslim traditions and 
practices until the jihadists could be dislodged from power. Even now, 
however, the al-Qaeda-led alliance threatens Mali. Many of the jihadist 
fighters melted away into neighboring countries, where, free from the 
West's superior military might, they have regrouped and lived to fight 
another day.\2\
    Al-Qaeda did not overthrow the government in Mali, but, as was the 
case elsewhere, the international terror network took advantage of the 
situation. A coup d'etat by Malian soldiers unseated the elected 
government and set in motion a chain of events that AQIM capitalized 
on. Armed with weapons formerly kept in Col. Muammar al-Qaddafi's 
arsenals, al-Qaeda, other jihadist groups and Tuareg tribesmen quickly 
ran roughshod over the Malian military.
    The war in Mali is instructive because it shows how events 
throughout the region, including inside the countries we were asked to 
assess today, are interconnected. Qaddafi's weapons fueled the fight in 
Mali, but post-Qaddafi Libya's instability and porous borders have 
escalated the violence as well. Fighters who took part in the Libyan 
revolution returned to Mali with fresh combat experience. Al-Qaeda and 
allied jihadists have established training camps inside Libya and newly 
trained fighters have been able to move across Algeria into Mali.
    The threat of terrorism inside Algeria has increased during the war 
in Mali. In January 2013, an al-Qaeda commander named Mokhtar 
Belmokhtar laid siege to the In Amenas gas facility. Belmokhtar's 
forces have fought in Mali and operated inside Libya as well. Algerian 
authorities claim that some of the Egyptians who took part in the In 
Amenas operation also participated in the September 11, 2012, terrorist 
attack in Benghazi, Libya. Tunisian authorities have blamed veterans 
from Mali with links to AQIM for security problems along the border 
with Algeria.\3\
    The war in Mali is tied, therefore, to broader regional security 
problems that stretch into and throughout all of North Africa. In fact, 
the terrorist threats in North Africa are tied to events that occur 
even farther away--in Syria, for example. Al Qaeda in Iraq drew many 
recruits from North Africa during the height of the Iraq war. With the 
Syrian war raging on, al-Qaeda's two affiliates in Syria continue to 
draw fighters from North Africa's jihadist pool. These same fighters 
can pose threats to their home countries upon their return.
                               key points
    This brief introduction is a way of saying that the terrorist 
threat emanating from North and West Africa is a dynamic problem set 
with no easy solutions. Still, the last several years have revealed to 
us certain key lessons. Any sound strategy for defeating al-Qaeda and 
its allies should take the following into account:

  <bullet> AQIM leads a network that operates in several countries. 
        This network is comprised of not just individuals and brigades 
        that are formally a part of AQIM, but also entities that are 
        closely allied with the al-Qaeda branch. If we are to defeat 
        the AQIM network, then the West and its local allies must 
        understand AQIM's order of battle--that is, how all of these 
        groups are operating in conjunction with one another. There are 
        differences between some of these groups, but at the end of the 
        day they are in the same trench. I discuss this further below.
  <bullet> The AQIM network includes groups that are frequently 
        identified as ``local'' jihadist organizations. It is widely 
        believed that groups such as Ansar al-Dine and the Ansar al-
        Sharia chapters are not really a part of the al-Qaeda network 
        in North and West Africa. But, as I explain, this view is based 
        on a fundamental misreading of al-Qaeda's objectives.
  <bullet> Western analysts should be careful not to underestimate the 
        current or future capabilities of al-Qaeda's many branches. 
        Prior to its takeover of much of Mali, the AQIM threat was 
        widely viewed as a criminal problem. Kidnappings for ransom, 
        contraband smuggling, and extortion were and remain key AQIM 
        operations. But the organization and its allies have now 
        demonstrated a much more lethal capability. They have proven 
        capable of taking and holding territory in the absence of 
        effective central government control. Given that some of the 
        governments in North Africa have only a tenuous grip on power, 
        AQIM and its allies may have the opportunity to acquire 
        additional territory in the future. They will continue to 
        contest for control of parts of Mali, especially after the 
        French withdraw their troops.
  <bullet> There is always the potential for AQIM and allied groups to 
        attempt a mass casualty attack in the West. For obvious 
        reasons, most analysts downplay AQIM's capabilities and intent 
        in this regard. Even though its predecessor organization 
        targeted France as early as 1994, in more recent years the 
        group has not successfully launched a mass casualty attack in 
        the West. However, as we've seen with other al-Qaeda branches, 
        this does not mean that this will continue to be the case in 
        the future. We've seen time and again how various parts of al-
        Qaeda's global network have ended up attempting attacks on the 
        U.S.\4\ AQIM and allied organizations belong to a network that 
        is loyal to al-Qaeda's senior leadership and remains deeply 
        hostile to the West. While most of their assets will be focused 
        over there, in North and West Africa, there is always the 
        potential for some of their resources and fighters to be 
        deployed over here.
  <bullet> In August, al-Qaeda emir Ayman al-Zawahiri appointed Nasir 
        al-Wuhayshi, the head of Al Qaeda in the Arabian Peninsula 
        (AQAP), to the position of al-Qaeda's general manager. Based on 
        my reading of captured al-Qaeda documents, the general 
        manager's position is responsible for overseeing the operations 
        of 
        al-Qaeda's many branches.\5\ Wuhayshi has been in contact with 
        AQIM's top leader, Abdelmalek Droukdel. However, AQIM's emir 
        ignored some of Wuhayshi's advice in the past.\6\ That may 
        change now that Wuhayshi is technically Droukdel's superior. 
        This is important because Wuhayshi has proven to be an 
        effective manager capable of running insurgency operations at 
        the same time that his henchmen have plotted attacks against 
        the U.S.
                  the al-qaeda network in north africa
    In this section, I briefly outline the structure of al-Qaeda's 
network in North Africa. The network is comprised of a clandestine 
apparatus, al-Qaeda's official branch (joined by its allies), as well 
as the Ansar al Sharia chapters.
Clandestine Network
    We must always be mindful that al-Qaeda has maintained a 
clandestine global network since its inception. Of course, dismantling 
this network became the prime objective of American intelligence and 
counterterrorism officials after the September 11, 2001, terrorist 
attacks. Today, al-Qaeda continues to maintain a covert network. We 
regularly find traces of it. This network operates in conjunction with 
groups that are quite open about their allegiance to al-Qaeda.
    In August 2012, a report (``Al Qaeda in Libya: A Profile''), 
prepared by the federal research division of the Library of Congress 
(LOC) in conjunction with the Defense Department's Combating Terrorism 
Technical Support Office, outlined the key actors who were secretly 
pushing al-Qaeda's agenda forward inside Libya.\7\
    Al Qaeda's senior leadership (AQSL) in Pakistan has overseen the 
effort, according to the report's authors. AQSL ``issued strategic 
guidance to followers in Libya and elsewhere to take advantage of the 
Libyan rebellion.'' AQSL ordered its followers to ``gather weapons,'' 
``establish training camps,'' ``build a network in secret,'' 
``establish an Islamic state,'' and institute sharia law in Libya. 
``AQSL in Pakistan dispatched trusted senior operatives as emissaries 
and leaders who could supervise building a network,'' the report notes. 
They have been successful in establishing ``a core network in Libya,'' 
but they still act in secret and refrain from using the 
al-Qaeda name.
    The chief ``builder'' of al-Qaeda's secret endeavor in Libya was an 
alleged al-Qaeda operative known as Abu Anas al-Libi, according to the 
report's authors. Al-Libi was captured by U.S. forces in Tripoli in 
October. Other al-Qaeda actors are identified in the report and they 
presumably continue to operate in Libya.
    It is likely that al-Qaeda maintains covert operations inside the 
other North African nations as well. In Egypt, a longtime subordinate 
to Ayman al-Zawahiri named Muhammad Jamal al-Kashef was designated a 
terrorist by both the U.S. State Department and the United Nations in 
October.\8\ Egyptian authorities found that Jamal was secretly in 
contact with Zawahiri while also working with al-Qaeda in the Arabian 
Peninsula (AQAP) and Al Qaeda in the Islamic Maghreb (AQIM). Jamal 
established training camps in the north Sinai and eastern Libya. And 
some of his trainees went on to take part in the attack on the U.S. 
Mission in Benghazi, Libya on September 11, 2012. Jamal is currently 
jailed inside Egypt, but his upstart branch of al-Qaeda, commonly 
referred to as the ``Muhammad Jamal Network,'' remains active. Jamal's 
network has even established ties to terrorists inside Europe.
    Jamal's activities prior to his capture highlight the 
interconnectivity of al-Qaeda's global network, including throughout 
North Africa and the Middle East, as well as the organization's desire 
for secrecy in some key respects. In addition to its official and 
unofficial branches, al-Qaeda has also established and maintained 
terrorist cells. This has long been part of the organization's 
tradecraft.
Official Al-Qaeda Branch and Allies
    Since the September 11, 2001, terrorist attacks, al-Qaeda's formal 
branches have grown significantly. Al-Qaeda's official branch, or 
affiliate, in North Africa is AQIM. While AQIM's predecessor 
organizations were already closely tied to al-Qaeda, AQIM was 
officially recognized by Ayman al-Zawahiri in late 2006. AQIM's main 
objectives have been to overthrow North African governments it said 
were ruled by apostates and to replace their rule with an Islamic state 
based on sharia law. The Arab uprisings removed the ``infidel'' 
governments, which initially surprised al-Qaeda's ideologues because 
they did not expect, nor advocate, nonviolent political change. But, in 
al-Qaeda's view, the task remains unfinished because its harsh brand of 
sharia law has not been implemented.
    Mali was the first instance in which AQIM attempted to govern a 
large amount of territory based on its sharia code. In taking over two-
thirds of Mali, AQIM partnered with other organizations that shared its 
desire to see sharia implemented. Chief among these is Ansar al-Dine 
(AAD), which was added to the U.S. Government's list of global 
terrorist organization in March 2013.\9\ The State Department noted 
that AAD ``cooperates closely'' with AQIM and ``has received support 
from AQIM since its inception in late 2011.'' AAD ``continues to 
maintain close ties'' to AQIM and ``has received backing from AQIM in 
its fight against Malian and French forces.'' The U.N.'s official 
designation page contains additional details concerning the 
relationship between AAD and AQIM.\10\
    Captured AQIM documents further illuminate the relationship between 
AQIM and AAD. In one ``confidential letter'' from Abdelmalek Droukdel 
(the emir of AQIM) to his fighters, Droukdel notes that his forces 
should be split in two. Part of AQIM's forces would operate under AAD's 
command in northern Mali while the other part should focus on 
``external activity,'' meaning terrorism elsewhere.\11\
    Another AQIM-allied group is the Movement for Unity and Jihad in 
West Africa (MUJAO), which was formed by AQIM commanders who wanted to 
expand their operations. MUJAO was designated by the U.S. Government as 
a terrorist organization in December 2012.\12\ Still another al-Qaeda-
linked group was formed by Mokhtar Belmokhtar, a former senior AQIM 
who, because of leadership disagreements, formed his own organization 
in late 2012. In August, Belmokhtar announced that his group, the al-
Mulathameen Brigade, had merged with MUJAO.\13\
    Despite disagreements between the leaders of these various al-
Qaeda-linked groups, they are all openly loyal to al-Qaeda's senior 
leadership and they have all continued to work closely together in Mali 
and elsewhere. In addition, Boko Haram, which was also recently 
designated a terrorist organization, has joined this coalition and is 
``linked'' to AQIM.\14\
Ansar Al Sharia in Egypt, Libya, Tunisia, and Yemen
    Two prominent chapters of Ansar al-Sharia have risen in North 
Africa, one in Libya and the other in neighboring Tunisia. Some have 
argued that while these Ansar al-Sharia chapters cooperate with al-
Qaeda they have fundamentally different goals. Ansar al-Sharia is said 
to be focused on purely ``local'' matters, while al-Qaeda is only 
interested in the global jihad. But this is simply not true. Al-Qaeda's 
most senior leaders, including Ayman al-Zawahiri, have repeatedly said 
that one of his organization's chief priorities is to implement sharia 
law as the foundation for an Islamic state. This is precisely Ansar al-
Sharia's goal. In addition, there are credible reports that the Ansar 
al-Sharia chapters in both Libya and Tunisia have provided recruits for 
al-Qaeda's affiliates and other jihadist organizations in Syria, the 
new epicenter for the global jihad.
    The very first Ansar al-Sharia chapter was established in Yemen by 
AQAP. The U.S. Government recognizes Ansar Al Sharia Yemen as simply an 
``alias'' for AQAP.\15\ Ansar al-Sharia was part of AQAP's expansion 
into governance, which involved the implementation of sharia law.
    An Ansar al-Sharia chapter in Egypt has hardly concealed its 
loyalty to al-Qaeda. Its founder, an extremist who has long been tied 
to al-Qaeda's senior leadership, has said that he is ``honored to be an 
extension of al-Qaeda.'' \16\ Ansar Al Sharia Egypt was formed by 
members of the Egyptian Islamic Jihad (EIJ), a terrorist organization 
headed by Ayman al-Zawahiri that also merged with al-Qaeda. Mohammed 
al-Zawahiri, Ayman's younger brother, starred at Ansar Al Sharia 
Egypt's events prior to his re-imprisonment. Ansar Al Sharia Egypt's 
social media has consistently praised and advocated on behalf of al-
Qaeda.
    In this context, it is hardly surprising to find that the Ansar al-
Sharia chapters in Libya and Tunisia behave much like their 
counterparts. In October, Tunisian Prime Minister Ali Larayedh told 
Reuters, ``There is a relation between leaders of Ansar al-Sharia 
[Tunisia], Al Qaeda in the Islamic Maghreb and Ansar Al Sharia in 
Libya. We are coordinating with our neighbors over that.'' \17\ 
Tunisian officials have repeatedly alleged that Ansar Al Sharia in 
Tunisia is closely tied to AQIM, and even that they have discovered a 
handwritten allegiance pact between the emirs of the two organizations. 
Ansar Al Sharia Tunisia responded to these allegations by confirming 
its ``loyalty'' to al-Qaeda while claiming that it remains 
organizationally independent--a claim that is contradicted by other 
evidence.\18\
    Some of Ansar Al Sharia Tunisia's most senior leaders have known 
al-Qaeda ties, and at least two of them previously served as important 
al-Qaeda operatives in Europe.\19\ The group's leadership openly 
praises al-Qaeda. And the organization's social media is littered with 
pro-al-Qaeda messages. AQIM leaders have repeatedly praised and offered 
advice to Ansar Al Sharia Tunisia.
    Similarly, Ansar Al Sharia Libya's leaders are openly pro-al-Qaeda. 
The group has denounced the Libyan Government for allowing American 
forces to capture Abu Anas al-Libi, a top al-Qaeda operative. Ansar al-
Sharia has even been running a charity campaign on al-Libi's behalf. 
The authors of ``Al Qaeda in Libya: A Profile,'' the Library of 
Congress report published in August 2012, concluded that Ansar Al 
Sharia Libya ``has increasingly embodied al-Qaeda's presence in 
Libya.'' And Sufian Ben Qumu, a former Guantanamo detainee who is now 
an Ansar al-Sharia leader based in Derna, Libya, has longstanding ties 
to al-Qaeda. A leaked Joint Task Force Guantanamo (JTF-GTMO) threat 
assessment describes Ben Qumu as an ``associate'' of Osama bin Laden. 
JTF-GTMO found that Ben Qumu worked as a driver for a company owned by 
bin Laden in the Sudan, fought alongside al-Qaeda and the Taliban in 
Afghanistan, and maintained ties to several other well-known al-Qaeda 
leaders. Ben Qumu's alias was reportedly found on the laptop of an al-
Qaeda operative responsible for overseeing the finances for the 
September 11, 2001, terrorist attacks. The information on the laptop 
indicated that Ben Qumu was an al-Qaeda ``member receiving family 
support.'' \20\
    The weight of the evidence makes it far more likely than not that 
the Ansar 
al-Sharia chapters in Libya and Tunisia are part of al-Qaeda's network 
in North Africa. This has important policy ramifications because both 
groups have been involved in violence, with Ansar Al Sharia Libya 
taking part in the Benghazi terrorist attack and Ansar Al Sharia 
Tunisia sacking the U.S. Embassy in Tunis 3 days later. The Tunisian 
Government has also blamed Ansar al-Sharia for a failed suicide attack, 
the first inside Tunisia in years. While both chapters have been 
involved in violence, they have also been working hard to earn new 
recruits for their organizations and al-Qaeda's ideology. The Arab 
uprisings created a unique opportunity for them to proselytize.

----------------
End Notes

    1. ``Al-Qaeda in the Islamic Maghreb (AQIM): A Profile,'' A Report 
Prepared by the Federal Research Division, Library of Congress under an 
Interagency Agreement with the Combating Terrorism Technical Support 
Office's Irregular Warfare Support Program, May 2012. The report's 
authors described AQIM and jihadists in general as ``more a nuisance 
than an existential threat to the countries in which they operate.'' 
However, AQIM certainly became an existential threat to many Muslims in 
Mali in the months that followed the publication of this report.
    2. David Lewis and Laurent Prieur, ``Insight: Revival of Islamists 
in Mali Tests French, U.N. Nerve,'' Reuters, November 14, 2013; http://
www.reuters.com/article/2013/11/14/us-mali-islamists-insight-
idUSBRE9AD0QC20131114.
    3. See: Agence France Press, ``Jihadists Hunted in Tunisia `Former 
Mali Fighters','' May 10, 2013; http://www.globalpost.com/dispatch/
news/afp/130510/jihadists-hunted-tunisia-former-mali-fighters. 
Lambroschini, Antoine, ``Two Soldiers Killed in Tunisia Hunt for Qaeda-
Linked Group,'' Agence France Presse, June 6, 2013; http://
www.google.com/hostednews/afp/article/ALeqM5h_ 
sUffq2sL8NuZjHiP_GA10-
WOXA?docId=CNG.89440e74fb0ad05503b0e0f59380c91b.01&hl=en.
    4. Prior to the attempted Christmas Day 2009 bombing of Flight 253, 
Al Qaeda in the Arabian Peninsula (AQAP) was perceived as mainly a 
threat to Western interests inside Yemen, not abroad. A few months 
later, in May 2010, a Pakistani Taliban operative attempted to detonate 
a car bomb in the middle of Times Square. Earlier this year, a plot 
targeting a commuter train traveling from New York City to Toronto was 
unraveled by Canadian authorities. The plotters were tied to al-Qaeda's 
presence inside Iran. The Boston bombings in April show that young men 
who are drawn to the ideology of al-Qaeda-associated groups in Chechnya 
and Dagestan can be a threat to the U.S.
    5. Thomas Joscelyn and Bill Roggio, ``AQAP's Emir Also Serves as Al 
Qaeda's General Manager,'' The Long War Journal, August 6, 2013; http:/
/www.longwarjournal.org/archives/2013/08/aqap_emir_also_serve.php.
    6. Bill Roggio, ``Wuhayshi Imparted Lessons of AQAP Operations in 
Yemen to AQIM,'' The Long War Journal, August 12, 2013; http://
www.longwarjournal.org/archives/2013/08/wuhayshi_imparts_les.php.
    7. A copy of the report can be found online here: http://
www.fas.org/irp/world/para/aq-libya-loc.pdf.
    8. The State Department's announcement of Jamal's designation can 
be found here: http://www.state.gov/r/pa/prs/ps/2013/10/215171.htm. The 
U.N.'s designation page can be viewed here: http://www.un.org/News/
Press/docs/2013/sc11154.doc.htm.
    9. http://www.state.gov/r/pa/prs/ps/2013/03/206493.htm.
    10. http://www.un.org/sc/committees/1267/NSQE13513E.shtml.
    11. Bill Roggio, ``Al Qaeda in Mali Sought To Hide Foreign 
Designs,'' The Long War Journal, February 15, 2013; http://
www.longwarjournal.org/archives/2013/02/al_qaeda_in_mali_ 
sou.php.
    12. http://www.state.gov/r/pa/prs/ps/2012/12/201660.htm.
    13. Bill Roggio, ``Al Qaeda Group Led by Belmokhtar, MUJAO Unite To 
Form al-Murabitoon,'' Threat Matrix, August 22, 2013; http://
www.longwarjournal.org/threat-matrix/archives/2013/08/
al_qaeda_groups_lead_by_belmok.php.
    14. For details concerning how these various groups, and Boko 
Haram, have operated along- 
side one another, see: Jacob Zenn, ``Boko Haram's International 
Connections,'' CTC Sentinel, January 14, 2013; http://www.ctc.usma.edu/
posts/boko-harams-international-connections. See also: Bill Roggio, 
``US Adds West African Group, 2 Leaders, to Terrorism List,'' The Long 
War Journal, December, 7, 2012; http://www.longwarjournal.org/archives/
2012/12/us_adds_west_ 
african.php. The designation for Boko Haram, noting it is ``linked'' to 
AQIM, can be found here: http://www.state.gov/r/pa/prs/ps/2013/11/
217509.htm. For more on Boko Haram's ties to the 
global al-Qaeda network, see: Thomas Joscelyn, ``A Well-Deserved 
Terrorist Designation,'' The 
Weekly Standard, November 13, 2013; http://www.weeklystandard.com/
blogs/well-deserved-terrorist-designation_767037.html.
    15. Thomas Joscelyn, ``State Department: Ansar al-Sharia An Alias 
for AQAP,'' The Long War Journal, October 4, 2012; http://
www.longwarjournal.org/archives/2012/10/state_department_ 
ans.php.
    16. Thomas Joscelyn, ``Ansar al-Sharia Egypt Founder `Honored To Be 
An Extension of al-Qaeda,' '' The Long War Journal, November 27, 2012; 
http://www.longwarjournal.org/archives/2012/11/
ansar_al_sharia_egyp.php.
    17. Patrick Markey and Tarek Amara, ``Tunisia Sees Islamist 
Militants Exploiting Libya Chaos,'' Reuters, October 20, 2013; http://
articles.chicagotribune.com/2013-10-20/news/sns-rt-us-tunisia-
20131020_1_islamist-militants-ansar-al-sharia-libya. It should be noted 
that one year earlier, during interviews on CNN and Fox News in October 
2012, Mike Rogers, the Chairman of the House Intelligence Committee, 
made similar claims. Rogers said that Ansar al Sharia Tunisia is 
``probably'' an al-Qaeda affiliate and that the Ansar al Sharias in 
Tunisia and Libya are the ``same organization.''
    18. Thomas Joscelyn, ``Ansar al-Sharia Responds to Tunisian 
Government,'' The Long War Journal, September 3, 2013; http://
www.longwarjournal.org/archives/2013/09/ansar_al_ 
sharia_tuni_6.php.
    19. Thomas Joscelyn, ``Al-Qaeda Ally Orchestrated Assault on U.S. 
Embassy in Tunisia,'' The Long War Journal, October 2, 2012; http://
www.longwarjournal.org/archives/2012/10/al_qaeda_ally_orches.php. See 
also: Thomas Joscelyn, ``From al-Qaeda in Italy to Ansar al Sharia 
Tunisia,'' The Long War Journal, November 21, 2012; http://
www.longwarjournal.org/archives/2012/11/from_al_qaeda_in_ita.php.
    20. The leaked JTF-GTMO threat assessment can be found on The New 
York Times Web site: http://projects.nytimes.com/guantanamo/detainees/
557-abu-sufian-ibrahim-ahmed-hamuda-bin-qumu/documents/11.

    Senator Kaine. Thank you. Boy, that raises a lot of 
questions.
    Let me just start with the regional point, Mr. Joscelyn. 
You addressed that. We can talk about these nations 
individually, and I have questions about them individually, but 
the first panel suggested that there is at least the regional 
partnership through the Trans-Sahara Counterterrorism 
Partnership. One of you indicated that that has not really been 
implemented fully or it has more work to do. And second, the 
assertion was made by our State Department witness that there 
is some possibility for using the more functioning civil 
societies in Algeria and Morocco as sort of models or examples 
that can help in Tunisia or Libya.
    Talk to me about sort of regional prospects before we get 
into some of the country-specific issues that you raised.
    Mr. Joscelyn. Well, you know, this is where it gets 
difficult because there are different situations in each 
country, obviously. I mean, you have a different environment in 
each country, and I agree with what the panel was saying 
previously about Tunisia being one of the better hopes for 
democracy in the region and along those lines.
    But I think the fundamental point I have as an al-Qaeda 
guy, a guy who studies al-Qaeda, is that they do not think 
about things in terms of state to state. I mean, they do and 
they do not. They understand that the operating environment in 
each state is different, but they have regional designs.
    And so they are basically going to try and exploit whatever 
vacuums they can to push forward their agenda. And unless we 
are having a strong hand--I think Dr. Lawrence is the one who 
mentioned the light footprint in Libya and Tunisia, which I 
agree with. I think unless we are having a strong hand in terms 
of emphasizing that, that this needs to be regional 
coordination across these countries, I think that that is 
something that is going to be lost in terms of strategy inside 
North Africa.
    Senator Kaine. Other thoughts on that?
    Yes, Dr. Lawrence.
    Dr. Lawrence. A couple of thoughts. First of all, in terms 
of tactics and strategies, there was a difference for a while 
in that for a while Tunisia and Libya got a pass from the worst 
terrorists in most ways because the successes of the 
revolutions was seen as giving a space for the possibility of 
Islamist governments. This has also helped a little bit in 
Morocco. To the degree to which the terrorists view the country 
as a potential Islamic state as opposed to a Western-backed 
secular state, there was a reduction in terrorism as we 
normally know it.
    And it also led to--and I have a paper on it I am happy to 
submit--the rise of the new jihadi Solifism, which is much less 
remote terrorists out in the mountains and in the desert and 
much more a mainstreaming of jihadi Solifist discourse within 
the cities of people who are living among regular and still 
espousing that same rhetoric but doing things more like 
targeted actions against embassies or against intellectuals, 
writers, that sort of thing, rather than classical terrorism.
    So we have seen some pretty major changes because of the 
Arab Spring. The Algerian Government never got a pass in many 
ways. Their government was always seen as the fomenter of all 
this, and that is one of the reasons why a lot of the Arab 
Spring tumult incubated in Algeria, and I am happy to say more 
about that.
    In terms of regional cooperation, these countries do not 
want to cooperate with each other much. There are a lot of 
debates going on about forcing it. We tend to want to see the 
region as a region, which is why we want it to be an economic 
region too, because it helps us to have big markets and big 
regions cooperating. But these guys do not want to cooperate 
with each other, in part because of big distrust among the 
countries. I mean, look at Algeria's recent announcement that 
they are going to be crossing the Tunisian and Libyan border 
without permission to go after bad guys, which is a violation 
of their long-standing principle of noninterference either of 
outsiders in the Algerian state or Algeria and the neighboring 
states.
    So we are seeing Algeria sort of stepping up and playing 
more of a regional role, but not necessarily in a way that 
makes us all warm and fuzzy about what is going to be the 
outcome of Algeria reaching out regionally that way.
    In terms of the whole civil society thing, you asked a 
question about whether the civil societies were better 
functioning in one country or another, and I would say all the 
countries have big destabilizing influences, which is why I 
focused on that in my introductory remarks.
    Algeria has over 11,000 deployments of riot police per 
year. The reason why we did not have a regime change in Algeria 
gets back to what the previous panel said about the economic 
strength of the Algerian state, but also because of war 
weariness, that neither the Algerian security forces nor the 
population want to push these local grievances into that kind 
of ferocious combat like they saw in the 1990s.
    There are other dynamics in Morocco, and others in Tunisia, 
and others in Libya, but to think that the quiescence has 
anything to do with popular satisfaction with the governments, 
we are not seeing that. The number two vote-getter in the 
Moroccan election was spoiled ballots. You have similar 
statistics in Algeria. You have a deep and increasing suspicion 
of all forces in the Tunisian state. And, of course, in Libya 
we have this fragmented reality that we are talking about.
    In fact, I increasingly think that young people are 
wondering what types of new institutions they need to build 
from scratch because there is no faith in existing political 
parties among the masses of young people, and little faith in 
civil society, which has long been controlled by governments in 
this part of the world.
    Senator Kaine. Thank you.
    Dr. Wehrey, do you want to say a word about the regional 
efforts? Then I want to come back and ask you a question about 
militias.
    Dr. Wehrey. Absolutely. Well, with regard to Libya's 
cooperation, it is very problematic given the informal security 
sector. I mean, the militias are controlling so much of the 
country on the borders, and this impacts, for instance, 
Algeria's willingness to cooperate on border security. The 
Algerians are convinced that the Libyan Government is 
penetrated by Islamists, whom they fear, and they are really 
loathe to cooperate.
    Regarding Libyan and Egyptian relations, there is intense 
distrust in Libya regarding Egypt's supposed sponsorship of 
Gadhafi loyalists in the country. With the CC government now, 
there are sensitivities among many Libyan Islamists about that 
government. Libya has had, I think, better cooperation with 
some of the countries to the south--for instance, Chad.
    But again, when we are talking about regional cooperation, 
we are talking about interactions between states, state 
institutions, and Libya just does not have those institutions 
in place.
    Senator Kaine. Let us go to the militia testimony that you 
gave earlier. First, just help me understand. When we hear 300 
militias, it is a little hard for us to get our head around. I 
have not traveled to Libya as you have spent so much time 
doing. Are these militias primarily sort of geographical and 
town- and community-based? Are they ethnic-based? How would you 
describe kind of their formation?
    Dr. Wehrey. The majority of them are based on town or 
region. They range anywhere from 200 to really no more than 
perhaps 2,000 men. Many of them arose during the revolution. 
They were the fighting units that overthrew Gadhafi. But others 
arose after the revolution, and in some cases they are more 
opportunistic gangs. I mean, they have gotten into criminal 
enterprise.
    So there are ones that have allied themselves for political 
reasons with politicians in the Parliament. There are those 
that are effectively sort of Neighborhood Watch programs for 
towns where there is no municipal police, there is no 
government forces providing security.
    In the east, for instance, the militias are demanding 
federalism. They are demanding a greater share of the oil 
revenues. They have shut down oil production. So as we have 
heard, in each of Libya's regions, the militias fulfill a 
different role.
    In the far south among some of these ethnic communities, 
the Tebu and the Taureg, the militias do have an ethnic 
component there.
    Senator Kaine. And do you agree with Dr. Lawrence's earlier 
testimony that it is not right to look at Libyan instability as 
sort of a single kind of instability but, depending on where it 
is in the country, there are all kinds of reasons for 
instabilities that you might see?
    Dr. Wehrey. Absolutely. I mean, there are many different 
microconflicts going on in Libya right now that reflect the 
legacy of Gadhafi's rule. He pitted communities against one 
another. He played them off, and we are seeing these manifest 
themselves.
    For instance, in the east, in Benghazi, what is happening 
there, these assassinations is a shadowy mix of Islamists and 
criminals, vendettas against the old regime. The militia 
problem there is really qualitatively different than what is 
happening in Tripoli, where you have two power centers, Zintan 
and Misrata, that are essentially laying siege to the capital, 
demanding the spoils of the revolution. I mean, they are 
claiming ministries, they are kicking out the army, and we have 
seen over the weekend some of these militias pull back. But 
whether that really represents a dismantling of the militias I 
think remains to be seen.
    Senator Kaine. And just using the Tripoli example that each 
of you talked about in your testimony, it was an anti militia 
protest. Forty-six individuals who were protesting were killed. 
But then I gather even after that there was additional civilian 
protest to really continue to amplify the message that we want 
the militias out. And has that continued?
    Dr. Wehrey. Absolutely. There were civil strikes. I mean, 
the city was shut down, shops were closed, there were more 
protests, and what you did see was the deployment of the army 
into Tripoli. People were wondering, where has the army been 
all this time? So you did see the government finally deploy the 
army. You had some negotiations where militias have pulled out 
of the capital, outside the capital. But does this really 
represent diminishment of militia strength I think remains to 
be seen.
    The army--I mean, this was a show of force, but can the 
army really sustain itself? The army does not match the 
militias in terms of manpower or firepower.
    Senator Kaine. You had a five-point kind of plan that you 
walked through, and I think the final point was to try to 
basically deemphasize the militias and to get them out of the 
militias and to reintegrate militia members back into civilian 
life.
    Dr. Wehrey. Right.
    Senator Kaine. And I gather that you put that fifth because 
it might be the hardest thing to do, and you could probably 
only do it if you did the other four steps first. Do I read 
that right?
    Dr. Wehrey. It is the most difficult. I mean, this is an 
entrenched economic and social problem. The Libyan Government 
has developed a program to try to identify young men in the 
militias and to register them, to get them into jobs and 
scholarships. But this program has fallen victim to political 
in-fighting, to lack of funding, but it is a good first step. 
As I understand it, multiple U.S. agencies are supporting this 
effort to really get at the roots of this problem and to show 
these young men that you fought in the revolution, but now is 
the time to move on and build the country and relinquish your 
arms.
    Senator Kaine. I am going to ask a similar question, Mr. 
Joscelyn, to you, and then Dr. Lawrence, but kind of each in 
your own sphere. So with respect to your focus on al-Qaeda, 
based on your experience, would it be your recommendation that 
our policy should be to do new things or to do more of the 
things that we are currently doing? Do we need to look at a 
different strategy other than the current Trans-Sahara 
Counterterrorism Partnership, or do we just need to make 
heavier investments in the activities that we are currently 
doing in order to counter the extremist influence?
    Mr. Joscelyn. Well, I think my big warning is that I find 
these groups do have plans for what they are doing, and my 
beginning point is to figure out what that plan is, and then 
our plan is to basically dismantle it. That is essentially 
where we start.
    So when we talk about militias, for example, there is good 
evidence that this was part of al-Qaeda's plan for inside 
Libya, to coopt or work with certain militias. These militias 
are not going to reintegrate into a more national force. 
Identifying and isolating and trying to contain those militias 
should be part of any strategy for anything we are doing inside 
Libya. In fact, I warned in April 2011 about some of these 
militias in congressional testimony as having already been 
coopted by al-Qaeda, and some of them went on to take part, 
including Ansar al-Sharia, in the Benghazi terrorist attack.
    So to that extent and just to play off something that Dr. 
Lawrence said a few minutes ago, too, he was exactly right. 
When I said that they do and they do not view it regionally, 
they have a whole comprehensive strategy for the region, our 
enemies do, but how they operate in any given country can vary, 
absolutely. So that is part of how we have to adjust our 
tactics, that it corresponds to what they are doing.
    For example, in Tunisia, for a long time they would like to 
talk about Ansar al-Sharia was basically doing charity events. 
I was very concerned about this because these are not overt 
acts of terrorism, of course, but yet what they are doing is 
they are building up their cadre which can be used for those 
types of terrorist acts in the future. Now what we have seen is 
that, in fact, they had a clandestine apparatus that was 
planning and plotting terrorism all along, including, in fact, 
the ransacking of our Embassy.
    Senator Kaine. And, Dr. Lawrence, your focus is really on-- 

I mean, a focus on young people and what we need to do. So I 
gather your answer to my question is not that we need to do 
more of what we are doing but we kind of need to do different 
things and have a different focus that really is looking at the 
youth in the region.
    Dr. Lawrence. Yes, and the youth are everybody. I mean, 
basically because of the youth bulge, we are talking about the 
entirety of these populations. The median age in Tunisia, which 
has turned the demographic corner, is 30. In Morocco and 
Algeria it is 27, and in Libya it is 24. So the latter three 
suffer more from that structural youth bulge problem. In 
Tunisia, it is more about unemployed university graduates that 
is the destabilizing factor demographically.
    Four very quick points.
    During the revolution in Libya, almost every community 
liberated itself, and that is why the militias are community-
based, except Tripoli, which 80 percent liberated itself in 24 
hours in August 2011, and then the Zintanis and the Misratans 
finished off the job in 9 days with the help of NATO and never 
left.
    So one of the things that is unique about Tripoli is that 
you had foreign militias that never left. So kicking the 
Misratans out of Tripoli is progress, but it does not solve any 
other problem, except that civilians across Libya, insofar as 
they have other problem militias, will see this as an example. 
But this was the only problem with militias from somewhere 
else.
    A second point is that there was some work done by Small 
Arms Survey, in cooperation with Crisis Group, and we did a 
taxonomy of the militias, and I agree with everything that Fred 
said. But just to give you a little data point, about 80 
percent of the militias were the revolutionary militias that 
now work for the government, and they are getting in trouble 
with the government all the time because they are not getting 
paid or because there is some political policy they do not 
like, so they will storm Parliament or they will hold a 
minister hostage. But these are the pro-revolutionary militias. 
In our coverage we conflate the pro-revolutionary militias that 
are causing a lot of the ruckus with everybody else. It is 
different militias.
    About 10 percent of the militias are these post-
revolutionary militias that tended to be from the more pro-
Gadhafi areas, like Bani Walid, and they have another set of 
issues. And then about 5 percent of the militias are 
unaffiliated either way, and they are basically kids with arms 
doing something. And then the other 5 percent are terroristic 
and criminal gangs, some of which predated the revolution and 
which continue to cause all the types of problems that Mr. 
Joscelyn is talking about. But you have to think about these 
four different types of militias.
    The third point is the GPF is a great idea and I subscribe 
to everything that Fred said, but the metaphor I use for Libya, 
both before and after the revolution because I have worked on 
Libya since the early 2000s, is that you do not want to put all 
your eggs in the GPF basket. The metaphor is a train station. 
It is like we have a GPF train that has not left yet, and then 
we think all the passengers should get on the GPF train, and we 
do not know if that track is blocked or whether it will make 
it.
    With Libya, since there is so much dysfunctionality and 
lack of capacity in government, you have to have several 
different plans, and you do not know which one is going to move 
forward at a particular time.
    And the last point is to underscore stuff that Fred said. 
The militias are not going to give up their weapons in Libya, 
even the very pro-government ones, until we have a situation 
that is working, we have a constitution, we have further 
elections, and we have a system that seems less corrupt in 
which the money starts to flow, and that gets to sort of an 
economic point, which is that right now oil production is down 
to 10 percent of peak capacity because of the problems with the 
militias who were not getting paid.
    There are certain enlightened people, like the head of the 
Tripoli Brigades, who was trying to spin off fighters with 
microloans to start businesses and that sort of thing. But 
there is almost no capacity in the government to create 
economic opportunities for militiamen, and right now one of the 
best paid jobs for young persons is to be in a militia, getting 
paid eventually by the government, when they pay you.
    So a lot of overlapping problems here, and just kicking the 
militias out from somewhere is not going to solve them.
    Senator Kaine. Let me just follow up on that. I do not 
think it was stated so unequivocally in the first panel, but to 
some degree they did. There is sort of an assumption that Libya 
does not need financial assistance because it has natural 
resources. Is that your view as well, or does the diminished 
oil production and other sort of economic challenges and 
militiamen not getting paid--I mean, is there a need for us 
with our partners to contemplate financial assistance?
    Dr. Lawrence. On this score, it is the same in Libya before 
the revolution--and I worked in a lot of cooperative programs 
with Libya--as Libya after the revolution, poor governmental 
capacity and a big mistrust of foreigners coming in with a plan 
for Libya. So the way in which you do successful cooperation 
with Libya is you pilot stuff.
    Senator Kaine. Pilot.
    Dr. Lawrence. And to pilot things, you have to have 
resources. I was often flummoxed when I worked at the State 
Department and I talked to Congress and others back when I 
worked for the government that they would say OK--and you hear 
this in national organizations, too--Libya has money, so we do 
not need money. The problem is that in order to get Libya to 
take out its checkbook and pay for things--and right now the 
bank balance is very low because of the crisis in oil sales--
you need to demonstrate to the Libyans what works and who the 
good people are to work with. And to do that, the United 
Nations, the European Union, the United States, and other 
friends and partners with Libya have to spend a little bit of 
money to pilot things. And if things are successful on the 
pilot level, then the Libyans will take out their checkbook and 
start paying for things.
    The same with Algeria, which has $120 billion in the bank 
and is not spending it. So you have a very rich country with 
very low spending in the areas that it needs to be spending, 
and it needs international cooperation to help point the way.
    Morocco and Tunisia is a different dynamic.
    Senator Kaine. Let me just ask one last question both for 
Dr. Joscelyn and Dr. Wehrey, or Mr. Joscelyn and Dr. Wehrey.
    Dr. Lawrence in his testimony talked a little bit about the 
Syria effect, folks coming back, some backlash from Syria. Mr. 
Joscelyn, you just alluded to it briefly in your testimony. But 
I would like you to each talk about how you see instability in 
Syria or other regional instabilities kind of washing back into 
the Maghreb.
    Mr. Joscelyn. Well, one of the things that happened with Al 
Qaeda in the Islamic Maghreb is that its operations accelerated 
during the Iraq war because they were sending off a lot of 
recruits to fight in Iraq. Currently during the Syrian war, 
basically we have seen that same pattern. Many of those same 
facilitation networks are being used to send recruits from 
North Africa to Syria to fight, and they can obviously bring 
them back to North Africa or they can raise trouble and create 
problems in their home countries.
    One of the things that I have seen evidence of is, for 
example, the Ansar al-Sharia branches in Tunisia and Libya 
appear to be sending off recruits to Syria. They actually 
promote this sort of thing. I see it in their social media. I 
see it in various different indications.
    So these are groups that are very actively sending off 
recruits to fight in Syria and elsewhere. The reason why that 
is important is because it shows you that, again, to the whole 
idea that there is a network. There is a network in play of 
individuals across this region, and even into the Middle East, 
that is capable of sort of orchestrating terrorism, and it is 
not just about the insurgency in Syria that these guys are 
fighting, but it can also be used in other ways to manifest 
itself. It is having effects in Iraq. It could potentially have 
effects in Turkey or throughout the region, the Middle East and 
elsewhere.
    Senator Kaine. Dr. Wehrey.
    Dr. Wehrey. Well, I certainly agree. I mean, there is 
activity by some of these radical Islamist groups, Ansar al-
Sharia, the Omar Mukhtar Brigade in the east, that send 
volunteers. These individuals are participating with al-Qaeda-
affiliated units in Syria. But there is also, I think, a 
broader movement in Libya of sending volunteers out of Islamist 
nationalism that is not really al-Qaeda. They are fighting with 
the Free Syrian Army. I mean, these people did go to 
Afghanistan and Iraq, and they see an impulse to help suffering 
Muslims in Syria, but they are not al-Qaeda, and I do not think 
there is going to be a threat from them coming back.
    I do think it is important to distinguish in Libya right 
now, when you look at the Islamist spectrum, that the al-Qaeda 
affiliates or sympathizers is a very small minority. Many of 
these Islamists, they did fight in Afghanistan, they did fight 
against United States Forces in Iraq, but they have come back 
and they have integrated into the political system. I mean, 
they have offices. They are in the Cabinet. They are in 
Parliament. I think it is a good thing.
    You hear this narrative in Libya by many politicians to try 
to tar all Islamists as either Brotherhood or al-Qaeda, and I 
think that is very, very dangerous, and we need to distinguish 
it.
    Senator Kaine. Well, I want to thank you all for your 
testimony. It was great to hear the first panel, which was all 
State Department, DOD, AID, talking about what we are doing. 
Your value is having an expertise and an independence to kind 
of not just talk about what we are doing but assess what is 
working and what is not. It was helpful to have you today, and 
I appreciate it.
    And with that, the hearing is adjourned.
    [Whereupon, at 3:59 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


Responses of Principal Deputy Assistant Secretary Richard Schmierer to 
             Questions Submitted by Senator Robert Menendez

              middle east and north africa transition fund
    Question. If funding was appropriated for the Transition Fund, what 
programs, activities, and types of engagement would be funded?

    Answer. During the 2012 U.S. Presidency of the G8 Deauville 
Partnership with Arab Countries in Transition, the United States led an 
effort to design and launch a new, grant-based Middle East and North 
Africa Transition Fund to support technical assistance and pilot 
projects in the areas of economic governance; trade, investment, and 
integration; and inclusive development and job creation.
    The Fund's mandate is to provide funding for projects that will 
allow transition governments participating in the Deauville Partnership 
(Tunisia, Libya, Jordan, Morocco, Yemen, and Egypt) to make tangible 
progress on policy reforms critical to promoting economic stability and 
enabling a shift toward democracy. Projects can support ministries, 
local municipalities, central banks, and Parliaments, and many of the 
projects proposed are aimed at improving governments' capacity to 
support small and medium enterprises, youth employment, and engage with 
civil society. Transition countries and multilateral development banks 
jointly produce proposals that the Fund's steering committee selects 
through a competitive process to create incentives for innovation and 
solid program design.
    To date, the Fund has approved $101 million for 24 projects in the 
partnership countries, and an additional $36 million will be available 
for additional project approvals by the end of the year. Other donors 
(not including the United States) have pledged $156 million, of which 
they have disbursed $117 million to date. By the end of this calendar 
year, the United States will have provided $20 million to the MENA 
Transition Fund, of which $10 million was provided in May 2013. 
Examples of actions to be taken by recipient governments in North 
Africa as a result of projects financed by the Fund include:

  <bullet> Tunisia: Establish an Investment Authority to increase 
        investments in the country, creating much needed jobs and 
        boosting economic growth.
  <bullet> Morocco: Develop a new governance framework based on public 
        consultation, transparent budgets, and fiscal decentralization.
                              smart power
    Question. How has the State Department changed the way it does 
business since 2011 in order to engage with North African Youth, 
including the next generation, including Fulbright and other 
scholarship opportunities?

    Answer. Prior to and after the Arab Spring, the State Department's 
Public Diplomacy programming in North Africa has sought to expand 
constructive political, commercial, security, and people-to-people 
partnerships, and to apply the themes of pluralism, transparency, and 
fairness in ways that recognize the diversity of local circumstances 
and audiences across the region. Given increasing levels of 
unemployment in the post-Arab Awakening period, especially among those 
under the age of 30, U.S. Public Diplomacy programming also encourages 
North African youth to seek expanded opportunities through education, 
entrepreneurship, and professional development.
    We have also used public-private partnerships to promote 
entrepreneurship, education, investment, youth employment and regional 
economic cooperation throughout the Maghreb. Since 2010, our 
partnerships provided an effective framework for regular exchanges of 
experience and expertise among U.S. Government representatives, 
prominent American business leaders and local entrepreneurs.
    Over the past 2 years in Libya, Embassy Tripoli has supported 
English Access Microscholarship Programs in Tripoli and Benghazi, and 
EducationUSA advisors at six universities. Ambassador Jones signed a 
memorandum of understanding on higher education cooperation with the 
Libyan Government in the fall of 2013. Social media also greatly 
enhances the mission's reach; its 220,000 Facebook fans make Embassy 
Tripoli one of the top-five subscribed pages in the country.
    Positive trends in the PD environment have continued to support a 
level U.S. engagement with the Tunisian people and government that 
would have been unimaginable under the previous regime. A key program 
in Tunis is the U.S.-funded Thomas Jefferson Scholars program, which 
will send about 300 students to the United States over 3 years for a 
year of undergraduate or community college study. When combined with 
the over 20 active partnership programs between U.S. and Tunisian 
universities, Embassy Tunis is making considerable and rapid inroads in 
Tunisian higher education. The English Access Microscholarship Program 
is now active in eight cities, reaching 1,000 underprivileged 
teenagers.
    The stable environment and enthusiastic support of the Moroccan 
Government have made Morocco an ideal testing ground for new PD 
programs, including the English Access Microscholarship and the Youth 
Exchange and Study Programs, over the past decade. The TechCamp Caravan 
Program, which has already provided intensive technology training to 
over 120 Moroccan NGOs, is emblematic of an outreach strategy that 
seeks to educate, entertain, engage, and empower audiences in every 
corner of Morocco. Another public diplomacy program highlighted the 
economic and health impacts of counterfeit pharmaceutical and consumer 
products to youths just beginning to form their market preferences. The 
program received extensive media coverage over a 2-week period, 
culminating in a documentary that aired on Morocco's largest television 
network.
    Building on a strong commercial relationship and burgeoning 
security partnership, Embassy Algiers' Public Diplomacy programming 
aims to demonstrate the benefits of a closer relationship to citizens 
and government officials throughout Africa's largest country. Diligent 
negotiation with the Algerian Government has led to a blossoming 
partnership in the media, education, arts, and youth programs. In 
addition to a large English Access Microscholarship Program, Embassy 
Algiers grants also now provide English training at several government-
run youth centers and career skills training at public universities.

    Question. What bilateral and regional tools and pressure is the 
administration using to combat the destabilizing effects of extremist 
groups such as Al Qaeda in the Islamic Maghreb (AQIM)?

    Answer. Combating violent extremist groups, such as AQIM, is a 
priority for the Obama administration. The Trans-Sahara 
Counterterrorism Partnership (TSCTP) is the U.S. Government's 
multiyear, interagency, and regional program designed to build the 
capacity and resilience of the governments and communities in the Sahel 
and Maghreb regions of Africa to contain, degrade, and ultimately 
defeat the threat posed by al-Qaeda, its affiliates, and other violent 
extremist organizations (VEOs) in the Trans-Sahara region. TSCTP also 
provides a platform to improve regional and international cooperation 
and information-sharing, including between the Sahel and Maghreb 
regions, to counter shared threats. TSCTP partner countries include 
Algeria, Burkina Faso, Chad, Mali, Mauritania, Morocco, Niger, Nigeria, 
Senegal, and Tunisia.
    The TSCTP budget request for FY 2014 is $45 million. These funds 
will enable us to build capacity and assist regional counterterrorism 
(CT) efforts across a large and diverse geographical area with complex 
security situations. Areas of support include: (1) enabling and 
enhancing the capacity of North and West African militaries to conduct 
counterterrorism operations; (2) integrating the ability of North and 
West African militaries, and other supporting allies, to operate 
regionally and collaboratively on CT efforts; (3) enhancing individual 
nations' border security capacity to monitor, restrain, and interdict 
terrorist movements; (4) strengthening the rule of law, including 
access to justice, and law enforcement's ability to detect, disrupt, 
respond to, investigate, and prosecute terrorist activity; (5) 
monitoring and countering the financing of terrorism (such as that 
related to kidnapping for ransom); and (6) reducing the limited 
sympathy and support among communities for violent extremism. 
Additionally the United States supports countries in the region through 
bilateral International Military Education and Training (IMET) 
Programs, which seek to help professionalize their respective 
militaries, and training and equipment funded from Foreign Military 
Financing (FMF), which often supports or sustains the capacity of 
foreign militaries toward achieving counterterrorism goals.
    Other programs aimed to combat AQIM and other VEOs include the 
Department of State's Antiterrorism Assistance (ATA) Program, which 
provides capacity-building programs for law enforcement agencies of 
partner nations. All these training programs are designed to 
institutionalize and sustain improved antiterrorism prevention and 
response. In the Maghreb region, our ATA training and equipment 
programs aim to build partner nations' law enforcement capacity, 
particularly in the areas of border security and investigations.
    With the growing youth population and burgeoning unemployment in 
the region, the United States also supports initiatives that deter 
youth from participating in terrorist networks, through programs 
designed to counter violent extremism (CVE). These programs provide 
positive alternatives to communities most at risk of recruitment and 
radicalization to violence, through activities like educational 
opportunities and job trainings, or others that address specific 
drivers of radicalization; and counter terrorist narratives and the 
violent extremist worldview by promoting nonviolent interpretations of 
Islam.

    Question. What soft power methods is the State Department using to 
compete with and defeat the ideology and recruitment opportunities 
exploited by AQIM and other extremist groups?

    Answer. Public Diplomacy (PD) Programs are used in the NEA region 
to counter violent extremism (CVE) by promoting alternatives to 
violence, providing economic and educational opportunities for 
marginalized populations, and countering the specific narratives of 
extremist organizations with positive messages. Throughout North 
Africa--especially in transition countries--programs are aimed at 
encouraging broad participation in national political and transition 
processes, particularly among youth and women. Training, skills 
development, and education programs enhance economic opportunities for 
at-risk youth and expand our access to target communities such as 
religious scholars. In addition, programs are designed to build the 
capacity of emerging local NGOs. Finally, CVE messaging is accomplished 
through film and broadcasting initiatives and an active array of social 
media outreach and messaging tools. Online, the interagency Center for 
Strategic Counterterrorism Communications' (CSCC) Digital Outreach Team 
actively engages audiences in North Africa to counter AQIM propaganda. 
CSCC has produced videos to counter-AQIM and they have been seen by 
over 57,000 viewers on YouTube alone. Programs aimed at journalism 
professionalization and civil society organization (CSO) capacity 
development aid in our long-term ability to partner with local media 
and CSOs to accomplish CVE goals. English-language training programs 
are a critical and widely deployed tool in this area and are gaining in 
popularity and effectiveness.
                                tunisia
    Question. The national dialogue, in which all parties have 
committed to participate in drafting a new constitution and electoral 
law and selecting an interim government to prepare new elections, has 
stalled over disagreements concerning the choice of interim Prime 
Minister. All parties remain committed to the dialogue, but the 4-6 
week timetable for the dialogue is very ambitious.

  <diamond> What is the 2013-14 plan for the Tunisian American 
        Enterprise Fund, and what sectors will it focus on?

    Answer. The Tunisian-American Enterprise Fund (TAEF) was 
incorporated on February 4, 2013, and is currently capitalized at $40 
million in U.S. foreign assistance funding. The investment has enabled 
the TAEF to take the necessary first steps to establish an office in 
Washington, DC, and hire a Tunisian Chief Operations Officer who will 
set up an office in Tunisia, possibly by the end of 2013. The existing 
board members held two board meetings in October 2013 to discuss their 
investment strategy and are expected to finalize and share it with us 
soon. The TAEF expects to make its first investment in 2014.
    The fund will accomplish its objectives by creating and coinvesting 
in a small number of special purpose mechanisms and joint ventures, 
alongside for-profit companies and multilateral development banks. 
TAEF's initial investment focus will be in SME, finance, technology, 
agriculture, health, and education sectors. These areas would allow the 
TAEF to target U.S. and international partners' interventions in the 
Tunisian economy and leverage them for greater economic impact.
    Based on prior experience, enterprise funds can take up to 2 years 
before making investments. The time allows enterprise funds to build a 
greater understanding of the country's investment environment, explore 
investment opportunities, and perform due diligence before investing.

    Question. What types of U.S. assistance, security and otherwise, 
have been most effective since 2011 in addressing Tunisia's security 
challenges and promoting economic and political reform, and an active 
civil society?

    Answer. United States assistance to Tunisia is intended to support 
Tunisia's democratic transition. Security assistance is a primary focus 
of our ongoing assistance programs, particularly in countering regional 
terrorist groups and in reorienting the Ministry of Interior, an 
institution that was largely associated with the former dictatorial 
regime. Security assistance programs have bolstered the Tunisian 
military's ability to obtain and maintain equipment necessary to secure 
its borders and locate terrorist suspects. Our Foreign Military 
Financing and International Military Education and Training programs 
also focus on providing leadership and counterterrorism training to 
Ministry of Defense officials.
    State Department programs, in partnership with the Tunisian 
Ministries of Interior and Justice, have been effective in supporting 
leadership development, police reform, antiterrorism training and 
nonlethal crowd control techniques in Tunisia.
    Supporting Tunisia's economic reform is also a priority for the 
United States. USAID programs work to address some of the constraints 
and support economic growth. Effective assistance programs that focus 
on economic reform include the Information and Communications 
Technology (ICT) Competitiveness Project, which generated over 2,400 
jobs for Tunisians and assisted Tunisia in reforming its Tax Code. 
Other economic programs have focused on developing Tunisia's small and 
medium-sized enterprises and creating the market space for this sector 
to flourish, including facilitating loans to small enterprises.
    Governance and democracy programming remains an assistance 
priority. The State Department and USAID contributed significant 
technical support to the 2011 Tunisian elections and are preparing to 
provide support for Tunisia's upcoming election as well.
    Our assistance also provides Tunisian political parties with 
training to build relationships with constituents and better articulate 
the aspirations of the Tunisian people. These programs have been highly 
effective in ensuring that Tunisian youth are taking on political and 
civic leadership roles in the ongoing democratic transition as well as 
in assisting nascent political parties to develop party platforms and 
constituent communication skills.

    Question. What is the administration doing to provide business and 
investment incentives to support a democratic transition in Tunisia?

    Answer. Assistance to help Tunisia expand economic growth and 
opportunity to all citizens, including through helping Tunisia to 
develop a better investment climate, is a key component of our ongoing 
support for Tunisia's democratic transition.
    The United States provided $100 million to directly pay debt that 
Tunisia owed the International Financial Institutions (IFES) allowing 
the Tunisian Government to accelerate economic growth and job creation. 
The United States also provided a $30 million loan guarantee that 
supported $485 million in new, more affordable, financing for the 
Tunisian Government, strengthening Tunisia's capacity to manage its 
transition to an economically sound and prosperous democracy.
    The United States is focused on providing additional support to 
Small and Medium Enterprises (SMEs). We have provided $40 million to 
the Tunisian-American Enterprise Fund, a private, nonprofit corporation 
to promote the development of the Tunisian private sector with a 
particular focus on SMEs. The Overseas Private Investment Corporation 
is also developing a facility of $50 million to provide working capital 
to Tunisian franchises, many of which will be small businesses. In 
addition to financial support, we are administering a program to 
provide technical assistance directly to SMEs. The focus is on 
supporting SMEs as exporters and providing diagnostic assessments and 
business facilitation services.
    We also engage in activities that support entrepreneurship and 
innovation within the Tunisian economy. For example, our information 
and communications technology (ICT) Competitiveness Project provides 
technical assistance, training, and access to finance for firms in ICT 
and ICT-enabled sectors (textiles, specialty foods, automotive and 
other manufacturing) that have the potential to create jobs. 
Additionally, we are supporting projects that assist the Tunisian 
Government to boost growth and youth employment in vulnerable, interior 
regions by promoting youth-led enterprise creation and development, 
including an emphasis on agricultural, ICT, and environmental sectors.
    In order to create a more conducive environment for investment and 
business, we are engaged in building the capacity of institutions and 
in working to spur needed economic reforms. The United States is 
providing technical assistance to improve legislative and regulatory 
frameworks and the overall business environment, as well as supporting 
the legal, trade, and investment capacity-building. Additional programs 
are providing training to build the capacity of 24 existing small 
business centers located throughout the country, including the 
interior, in order to improve growth in the SME sector.

    Question. Please provide an update on the activities of the Office 
of Transition Initiatives (USAID), the Middle East Partnership 
Initiative (State) and other political transition assistance we are 
carrying out in Tunisia.

    Answer. In support of Tunisia's democratic transition, prosperity, 
and long-term political stability, U.S. assistance continues to 
strengthen civil society and civic participation in the political 
process, support a free and fair electoral process, and promote an 
inclusive transitional justice process.
    USAID's Office of Transition Initiatives (OTI) continues programs 
throughout Tunisia. Specific efforts by OTI have focused on encouraging 
broad participation in the political transition with a particular 
emphasis on youth and women's engagement and working with local 
organizations to identify and respond to community priorities.
    To date, OTI has 214 activities completed or currently under 
implementation. Illustrative examples of OTI activities include: 
conducting a nationwide tolerance campaign through TV, billboards, and 
social media; stimulating dialogue between the Constituent Assembly and 
youth civil society leaders through a forum focused on the role of 
decentralization and the development of local democracy; facilitating 
townhall meetings between government officials and communities; 
encouraging greater activism among women in the interior region during 
Women's Day; providing physical and virtual meeting space for civil 
society to conduct business; conducting a live television debate on 
emerging political issues; and developing art and music workshops for 
at-risk youth.
    The Middle East Partnership Initiative (MEPI) is providing 
assistance that strengthens political parties and supports elections. 
Such assistance includes candidate training, voter and civic education 
designed to increase political participation of marginalized groups, 
direct assistance to the Tunisian elections management board, and 
elections observation support.
    For example, at the request of the Tunisian Ministry of Youth, MEPI 
programming has trained 48 government officials from all 24 
governorates in order to increase the Ministry's capacity to 
effectively engage marginalized youth in the political process. MEPI 
assistance is closely coordinated with USAID and other donors, such as 
MEPI's joint effort with the United Nations Development Program to help 
Tunisians develop an electoral law for the next national elections 
scheduled to be held in 2014.
                                morocco
    Question. Our relationship with Morocco is strong, and it is the 
only country on the African Continent with which we have a Free Trade 
Agreement. The unresolved Western Sahara dispute is a barrier to 
further economic and security cooperation in the region.

  <diamond> How does the administration plan to develop and deepen the 
        2012 Strategic Dialogue with Morocco?

    Answer. The Strategic Dialogue was launched in 2012 out of a shared 
desire to find opportunities to strengthen the partnership between 
Morocco and the United States and to seek new avenues for cooperation 
in the political, security, economic, educational, and cultural 
spheres. The administration plans to hold a second Strategic Dialogue 
meeting in early 2014 to build on continuing engagement, to review 
ongoing activities and identify new joint initiatives in support of the 
reform efforts being undertaken by His Majesty King Mohammed VI, and to 
advance our shared priorities of a secure, stable, and prosperous North 
Africa and Middle East.

    Question. Please provide a brief update on Moroccan civil society 
reforms, particularly those contained in the 2011 constitutional 
reform.

    Answer. Under King Mohammed VI, the Moroccan Government has 
undertaken a number of economic, social, and political reforms, 
including a revised constitution that is generally considered a step 
toward enhanced political rights and transparent governance in Morocco. 
Since the ratification of the 2011 constitution, the Moroccan 
Government has made measured progress in the development of the organic 
laws that the constitution outlines as the foundation for basic rights 
and the function of the government itself. Thus far, 4 of the 19 
articles of the constitution requiring organic laws have been fully 
addressed by the Parliament. In his October 11, 2013, address to open 
Parliament's fall session, the King urged the Parliament to pass more 
of these organic laws.
    The 2011 constitution also gives the judiciary greater 
independence. In September 2013 the High Commission for Judicial Reform 
and the Ministry of Justice presented their recommendations for 
judicial reform to King Mohammed VI. The recommendations included an 
overview of all planned reforms, while highlighting and prioritizing 
those laws that can be submitted to Parliament before the end of 2013. 
These changes include greater independence of the judiciary and 
creation of an accompanying High Judicial Council; a statute that 
regulates the profession of magistracy; the creation of a 
Constitutional Court; and changes to the jurisdiction of military 
tribunals.
    Morocco has also taken important steps to promote gender equality. 
The 2011 constitution called for civic, social, and political equality 
for women. The laws implementing these changes are working their way 
through Parliament.
    With regard to civil society in particular, civil society 
organizations are constitutionally empowered to affect political change 
in Morocco, and key parts of the government are keen to engage citizens 
in policymaking. Morocco's legal framework for civil society is among 
the most progressive in the region and given this opportunity, we would 
like to see the development of clear mechanisms to enable the Moroccan 
Government to receive input from civil society and facilitate inclusion 
of civil society in governance processes.

    Question. Please describe U.S. policy on the Western Sahara and 
updates on U.S. support to the U.N. Process.

    Answer. The U.S. Government continues to support the process led by 
U.N. Secretary General Ban Ki-moon and his Personal Envoy for Western 
Sahara, Christopher Ross, to find a peaceful, sustainable, and mutually 
agreed solution to the Western Sahara conflict. The U.S. Government, 
along with all the other members of the Security Council, unanimously 
adopted Resolution 2099 this year, which took note of the Moroccan 
autonomy proposal presented to the Secretary General on April 11, 2007, 
and welcomed the credible Moroccan efforts to move the process forward 
toward a resolution. It also took note of the Frente Polisario proposal 
presented on April 10, 2007. The United States has made clear that 
Morocco's autonomy plan is serious, realistic, and credible, and that 
it represents a potential approach that could satisfy the aspirations 
of the people in the Western Sahara to run their own affairs in peace 
and dignity.
    In November 2012 and March and October of this year, the U.N. 
Secretary General's Personal Envoy held broad-based consultations with 
the parties to the conflict, Morocco and the Frente Polisario, as well 
as with important regional stakeholders Algeria and Mauritania. He also 
consulted with the Friends of Western Sahara (France, Spain, Russia, 
the United Kingdom, and the United States). Ambassador Ross' work to 
bring the two parties together continues to hold promise and inspires 
hope for progress toward the resolution of this conflict. The United 
States supports Ambassador Ross' approach of bilateral talks with the 
parties with the aim to launch shuttle diplomacy to work toward finding 
a just, lasting, and mutually acceptable political solution.

    Question. How might the U.S. support a more active Moroccan role in 
addressing regional security threats? Please describe the state of 
security cooperation with Morocco date and plans to strengthen this 
partnership.

    Answer. Security cooperation with Morocco is excellent. The United 
States and Morocco have numerous shared regional priorities throughout 
the Middle East, North Africa, and the Sahel.
    Morocco and the United States have worked together over the past 2 
years on the U.N. Security Council for the advancement of international 
peace and security, including in Mali, the Sahel, Syria, Libya, and the 
greater Middle East. During their meeting on November 22, 2013, 
President Obama and King Mohammed VI committed to continuing close 
cooperation in the Global Counterterrorism Forum and to work to 
strengthen regional political, economic, and security ties across North 
Africa and the Sahel, including through a reinvigorated Arab Maghreb 
Union and other regional forums.
    Plans to strengthen this partnership include encouraging Morocco to 
join the United States in founding the International Institute of 
Justice and the Rule of Law in Malta, which the President did during 
his meeting with His Majesty the King. This institute will train a new 
generation of criminal justice officials across North, West, and East 
Africa on how to address counterterrorism and related security 
challenges through a rule of law framework.
                                algeria
    Question. The administration has encouraged Algeria to take a 
greater role in regional security efforts in the Sahel, including in 
Mali since 2012. Algeria's political culture remains dominated by the 
same ruling National Liberation Front generation of leaders who took 
over at independence in 1962. President Abdelaziz Bouteflika's health 
has deteriorated dramatically in 2013, and Presidential elections are 
due to take place in spring 2014, possibly pushing for a fourth term 
for Bouteflika.

  <diamond> What steps has the administration taken to encourage 
        greater political and economic openness in Algeria?

    Answer. The U.S.-Algeria civilian relationship has rapidly expanded 
and continues to grow today. The United States works closely with our 
Algerian partners to improve fiscal transparency, and the United States 
and Algeria actively discuss Algeria's WTO accession bid and our 
bilateral Trade and Investment Framework Agreement through the U.S.-
Algeria Strategic Dialogue. The United States also supports Algerian 
civil society through a variety of Middle East Partnership Initiative 
Programs, including a training program for newly elected women 
parliamentarians and a capacity-building initiative of domestic Civil 
Society organizations to observe future elections. Additional projects 
focus on Algerian-led advocacy for critical economic reforms and 
political leadership capacity building for youth party leaders.

    Question. How can we best support Algeria as it takes a larger 
regional lead in security and counterterrorism efforts?

    Answer. The United States and Algeria are already implementing 
agreements regarding information-sharing, increased training and 
capacity-building, and political and economic cooperation. 
Specifically, the United States is working to increase capacity-
building programs with Algeria through the Bureau of International 
Narcotics and Law Enforcement, Anti-Terrorism Assistance Programs, and 
the Trans-Saharan Counterterrorism Partnership.

    Question. What is the outlook for a post-Bouteflika political class 
in Algeria? Is an eventual transition of power to a new generation of 
leaders likely to have an adverse impact on economic and security 
cooperation?

    Answer. The United States supports the Algerian people and their 
democratic process. We have a productive partnership with President 
Bouteflika and the Government of Algeria, but it is for the Algerian 
people to decide who leads Algeria. The Algerian Constitution does not 
preclude Bouteflika from running for another term. We will continue to 
expand U.S.-Algerian cooperation across security and civilian sectors 
with President Bouteflika, or any other democratically elected leader.
                                 libya
    Question. Libya remains fragmented, and the prevalence of armed 
militias prevents the central government from exercising its authority 
over the entire country. Rebel militias in Eastern Libya have even 
formed their own oil company and control several production and 
transportation facilities.

  <diamond> What is the status of Libya's political transition, and 
        prospects for new elections?

    Answer. In elections viewed both domestically and internationally 
as credible and largely peaceful, Libyans elected a General National 
Congress in July 2012. PM Zeidan's government was approved by the GNC 
in October 2012. While the government enjoys democratic legitimacy, it 
lacks the ability to project its authority across the country or 
fulfill many core government functions. The government has found it 
difficult to implement reforms necessary to ensure a successful 
transition in part due to scant institutional capacity, day-to-day 
security challenges, and political power struggles.
    In this context, the Libyan Government is still making halting 
progress executing its mandate to usher in full democracy. Preparations 
are ongoing for elections for the constitutional drafting assembly that 
may be held in January 2014. HNEC announced candidates could self-
nominate in October, and 700 candidates registered by mid-November, 
including 74 women. After this body is elected, it will draft a 
constitution that will be put before popular referendum and serve as 
the basis for electing a permanent government, possible in mid- to 
late-2015.

    Question. What is the status of plans to use funds from the Global 
Security Contingency Fund and other DOD programs to provide security 
assistance to the Libyan Government?

    Answer. Through GSCF, over the next 3 years we (working with DOD) 
intend to assist the Libyan Government in creating an accountable, 
interministerial border security capability, including a border 
security force that upholds internationally accepted human rights 
standards while effectively defending Libya's borders against 
terrorism, weapons proliferation, and illicit trafficking. Our 
assistance will focus primarily on Libya's southern land border via an 
interagency approach. The program will focus on building capacity 
through the provision of technical expertise and training, and some 
equipping. We expect the Libyans to cover a number of costs.
    For GSCF lines of effort under the Department of State, we are in 
the process of finalizing curriculums and training locations, in 
addition to working with the Libyan Government to identify the MOD, 
MOI, and Customs border security-related officials who will receive the 
training. We expect the first training under GSCF to take place in 
January, 2014.
    The Department of Defense is implementing other GSCF programs.

    Question. What resources, if any, do you expect will be needed for 
such programs over the next several years?

    Answer. It is in our national interest to ensure Libya becomes a 
stable and democratic partner capable of addressing regional security 
challenges and advancing our shared interests. Our security assistance 
aims to address some of the most significant challenges to the 
democratic transition, including terrorism, porous borders, independent 
militias, and weak security and justice institutions. Our largest 
initiative, training general purpose forces, will be financed using 
Libyan funds; however the Libyan Government, plagued by weak 
institutions and limited capacity, faces difficulties spending its 
money effectively and focusing on many challenges at once.
    While Libya is a wealthy nation, it requires technical assistance 
and advice from the United States and other partner nations. We should 
continue to provide support that builds the capacity of Libyan 
institutions to tackle challenges of greatest interest to the United 
States. We view our assistance in these areas as seed money intended 
jump-start Libyan Government investment in programs that ultimately the 
government must own. Over the next several years we will continue to 
evaluate needs in Libya with respect to our priorities, which will help 
inform programmatic and funding decisions.

    Question. Please provide an update on the effort to train and 
develop a small core for a new Libyan Army. Who are we working with on 
this effort, and will this force be more of a protective force or will 
it have a broader security mandate?

    Answer. To improve the government's ability to establish stability 
throughout the country, we responded positively to a request this 
spring from Zeidan that we train a General Purpose Force (GPF), the 
core of a new Libyan Army. We leveraged this bilateral commitment to 
encourage Libya's European partners to contribute to this effort. Libya 
plans to use their trained forces to provide basic protection for the 
Libyan Government and its institutions. At the U.K.-hosted G8 summit in 
June, we pledged to train 5,000-8,000 member general purpose forces and 
the U.K. and Italy also pledged to train 2,000 members each. Turkey has 
more recently pledged to train a similar number. The general purpose 
forces are expected to protect the Libyan Government and its 
institutions.
    We plan to conduct the U.S.-led training in Bulgaria. We are 
discussing with the Libyan Government the many details required to 
implement this program, and coordinating with the U.K., Italy, 
Bulgaria, Turkey and Libya, and the U.N. Other bilateral and 
multilateral efforts to assist Libya with defense institution-building 
complement GPF training efforts.
    The Libyan Government will pay for our contribution to the GPF 
effort through a Foreign Military Sales case, and training could begin 
as early as spring 2014. This program is currently in the development 
phase and we will provide further details when available.
                                 ______
                                 

   Responses of Deputy Assistant Secretary Amanda Dory to Questions 
                  Submitted by Senator Robert Menendez

                              smart power
    Question. What bilateral and regional tools and pressure is the 
administration using to combat the destabilizing effects of extremist 
groups such as al-Qaeda in the Islamic Maghreb (AQIM)?

    Answer. Combating violent extremist groups, such as AQIM, is a 
priority for the administration. The Trans-Sahara Counterterrorism 
Partnership (TSCTP) is the U.S. Government's multiyear, interagency, 
regional program designed to build the capacity and resilience of the 
governments and communities in the Sahel and Maghreb regions of Africa 
to contain, degrade, and ultimately defeat the threat posed by al-
Qaeda, its affiliates, and other violent extremist organizations (VEOs) 
in the Trans-Sahara region. The TSCTP also provides a platform to 
improve regional and international cooperation and information-sharing, 
including between the Sahel and Maghreb regions, to counter shared 
threats. TSCTP partner countries include Algeria, Burkina Faso, Chad, 
Mali, Mauritania, Morocco, Niger, Nigeria, Senegal, and Tunisia.
    The TSCTP budget request for FY 2014 is $45 million. These funds 
would enable us to build capacity and assist regional counterterrorism 
(CT) efforts across a large and diverse geographical area with complex 
security situations. Areas of support include: (1) enabling and 
enhancing the capacity of North and West African militaries to conduct 
CT operations; (2) integrating the ability of North and West African 
militaries, and other supporting partners, to operate regionally and 
collaboratively on CT efforts; (3) enhancing individual nations' border 
security capacity to monitor, restrain, and interdict terrorist 
movements; (4) strengthening the rule of law, including access to 
justice, and law enforcement's ability to detect, disrupt, respond to, 
investigate, and prosecute terrorist activity; (5) monitoring and 
countering the financing of terrorism (such as that related to 
kidnapping for ransom); and (6) reducing the limited sympathy and 
support among communities for violent extremism. Additionally, the 
United States supports countries in the region through bilateral 
International Military Education and Training (IMET) programs, which 
seek to help professionalize their respective militaries, and training 
and equipment funded from Foreign Military Financing (FMF), which often 
supports or sustains the capacity of foreign militaries toward 
achieving counterterrorism goals.
    Other programs aimed to combat AQIM and other VEOs include the 
Department of State's Antiterrorism Assistance (ATA) program, which 
provides capacity-building programs for law enforcement agencies of 
partner nations. DOD has contributed to this through the 1206 program 
which has enhanced the capability of our North African partners to 
conduct CT operations.
    With the growing youth population and burgeoning unemployment in 
the region, the United States also supports initiatives that deter 
youth from participating in terrorist networks, through programs 
designed to counter violent extremism (CVE). These programs provide 
positive alternatives to communities most at risk of recruitment and 
radicalization to violence, through providing educational opportunities 
and job trainings, and addressing specific drivers of radicalization 
narratives and the violent extremist worldview; and by promoting 
nonviolent interpretations of Islam.
                                tunisia
    Question. The national dialogue, in which all parties have 
committed to participate in drafting a new constitution and electoral 
law and selecting an interim government to prepare new elections, has 
stalled over disagreements concerning the choice of Interim Prime 
Minister. All parties remain committed to the dialogue, but the 4-6 
week timetable for the dialogue is very ambitious.

  <diamond> What types of U.S. assistance, security and otherwise, have 
        been most effective since 2011 in addressing Tunisia' security 
        challenges and promoting economic and political reform, and an 
        active civil society?

    Answer. U.S. security assistance to Tunisia since 2011 has focused 
on supporting the Government of Tunisia's counterterrorism and 
counternarcotics efforts within the Trans-Sahara Counterterrorism 
Partnership (TSCTP) framework, and improving Tunisia's ability to 
secure its land and maritime borders. The Tunisian military receives 
the most U.S. Foreign Military Financing in Africa (other than Egypt), 
and a significant portion of Tunisia's military equipment is U.S. 
origin.
                                morocco
    Question. Our relationship with Morocco is strong, and it is the 
only country on the African Continent with which we have a Free Trade 
Agreement. The unresolved Western Sahara dispute is a barrier to 
further economic and security cooperation in the region.

  <diamond> How does the administration plan to develop and deepen the 
        2012 Strategic Dialogue with Morocco?

    Answer. The U.S. Government continues to support the process led by 
U.N. Secretary General Ban Ki moon and his Personal Envoy for Western 
Sahara, Christopher Ross, to find a peaceful, sustainable, and mutually 
agreed solution to the Western Sahara conflict. Ambassador Ross' work 
to bring the two parties together continues to hold promise and 
inspires hope for progress toward the resolution of this conflict, and 
it is these types of important issues that comprise the substance of 
the State Department-led Strategic Dialogue with Morocco. The United 
States supports Ambassador Ross' approach of bilateral talks with the 
parties with the aim to launch shuttle diplomacy to work toward finding 
a just, lasting, and mutually acceptable political solution.

    Question. How might the U.S. support a more active Moroccan role in 
addressing regional security threats? Please describe the state of 
security cooperation with Morocco date and plans to strengthen this 
partnership.

    Answer. Morocco and the United States have strong military ties, as 
evidenced by our annual U.S.-Morocco Defense Consultative Committee 
meetings, the eighth of which is scheduled for December 12. In 
addition, Morocco hosts the annual Exercise African Lion, which is 
DOD's largest military exercise in Africa and has expanded to include 
regional participants. The United States is very supportive of 
Morocco's willingness to expand its regional security cooperation 
efforts in Africa. Most recently, Morocco agreed to deploy its military 
to the Central African Republic to provide security for N forces in 
Bangui. We continue to encourage the Government of Morocco to engage 
with countries in the region in pursuit of our common security 
objectives.
                                algeria

    Question. The administration has encouraged Algeria to take a 
greater role in regional security efforts in the Sahel, including in 
Mali since 2012. Algeria's political culture remains dominated by the 
same ruling National Liberation Front generation of leaders who took 
over at independence in 1962. President Abdelaziz Bouteflika's health 
has deteriorated dramatically in 2013, and Presidential elections are 
due to take place in spring 2014, possibly pushing for a fourth term 
for Bouteflika.

  <diamond> What steps has the administration taken to encourage 
        greater political and economic openness in Algeria?
  <diamond> How can we best support Algeria as it takes a larger 
        regional lead in security and counterterrorism efforts?

    Answer. The United States seeks to expand its security cooperation 
with the Algerian Government to enable it to strengthen its domestic 
and regional defense capabilities to counterterrorism and transnational 
trafficking in order to deny safe heaven to al-Qaeda and other violent 
extremist organizations. To that end, DOD engagements have focused on 
supporting Algeria's participation within the Trans-Sahara 
Counterterrorism Partnership (TSCTP) framework, expanding military-to-
military engagements in areas such as border security, Counter-
Improvised Explosive Device (C-IED), and air defense, and inviting 
Algerian military observers to U.S.-sponsored exercises such as AFRICAN 
LION and FLINTLOCK. The U.S. International Military Education and 
Training (IMET) program provides a number of positions for the training 
of younger Algerian military officers. DOD does not anticipate that a 
new generation of military leaders will significantly alter U.S.-
Algeria military-to-military relations.
                                 libya
    Question. Libya remains fragmented, and the prevalence of armed 
militias prevents the central government from exercising its authority 
over the entire country. Rebel militias in Eastern Libya have even 
formed their own oil company and control several production and 
transportation facilities.

  <diamond> a. What is the status of Libya's political transition, and 
        prospects for new elections?

    Answer. In elections viewed both domestically and internationally 
as credible and largely peaceful, Libyans elected a General National 
Congress in July 2012. Prime Minister Zeidan's government was approved 
by the GNC in October 2012. Although the government enjoys democratic 
legitimacy, it lacks the ability to project its authority across the 
country or fulfill many core government functions. The government has 
found it difficult to implement reforms necessary to ensure a 
successful transition in part due to scant institutional capacity, day-
to-day security challenges, and political power struggles.

  <diamond> b. What is the status of plans to use funds from the Global 
        Security Contingency Fund and other DOD programs to provide 
        security assistance to the Libyan Government?

    Answer. Through Global Security Contingency Fund (GSCF), over the 
next 3 years DOD (working with DOS) intend to assist the Libyan 
Government in creating an accountable, interministerial border security 
capability, including a border security force that upholds 
internationally accepted human rights standards while contributing to 
the defense of Libya's borders against terrorism, weapons 
proliferation, and illicit trafficking. Joint DOD/DOS assistance will 
focus primarily on Libya's southern land border through an interagency 
approach. The program will focus on building capacity through the 
provision of technical expertise and training, as well as equipping of 
a 150-member border security company. Given the difficult security 
situation in Libya, DOD may conduct training in a third country. We 
expect the Libyans to cover a number of costs, such as vehicles.

  <diamond> c. What resources, if any, do you expect will be needed for 
        such programs over the next several years?

    Answer. It is in our national interest to ensure Libya becomes a 
stable and democratic partner capable of addressing regional security 
challenges and advancing our shared interests. Our largest initiative, 
training general purpose forces, will be financed using Libyan national 
funds via Foreign Military Sales cases; however, the Libyan Government, 
plagued by weak institutions and limited capacity, faces difficulties 
spending its money effectively and focusing on many challenges at once.
    Although Libya is a wealthy nation, we should continue to provide 
support that builds the capacity of Libyan institutions to tackle 
challenges of greatest interest to the United States and jump-start 
Libyan Government investment in programs that benefit both the United 
States and Libya. Over the next several years we will continue to 
evaluate needs in Libya with respect to our priorities, which will help 
inform programmatic and funding decisions.

  <diamond> d. Please provide an update on the effort to train and 
        develop a small core for a new Libyan Army. Who are we working 
        with on this effort, and will this force be more of a 
        protective force or will it have a broader security mandate?

    Answer. To improve the Libyan Government's ability to establish 
stability throughout the country, we responded positively to Prime 
Minister Zeidan's request to train a General Purpose Force (GPF) that 
would form the core of a new Libyan Army and provide basic protection 
for the Libyan Government and its institutions. Libya's European 
partners are also contributing to this effort. At the U.K.-hosted G-8 
summit in June, DOD pledged to train 5,000-8,000 GPF personnel while 
the U.K. and Italy also pledged to train 2,000 members each. Turkey has 
recently signed a bilateral agreement to train approximately 3,000 
Libyan personnel. The U.S.-led training is expected to occur at the 
Novo Selo Training Area, Bulgaria. DOD is discussing with the Libyan 
Government the many details required to implement this program, and are 
coordinating closely with the U.K., Italy, Bulgaria, Turkey, Libya, and 
the U.N. The GPF's primary function will be the protection of Libya's 
political, economic, and security institutions through security 
operations to include area security and border security. Training could 
begin as early as spring 2014.

                                  <all>

</pre></body></html>
